<html>
<title> - BEYOND THE STREETS: AMERICA'S EVOLVING GANG THREAT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                          BEYOND THE STREETS: 
                     AMERICA'S EVOLVING GANG THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2012

                               __________

                           Serial No. 112-140

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-310 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     JARED POLIS, Colorado

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel













                            C O N T E N T S

                              ----------                              

                             JULY 25, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........    11

                               WITNESSES

Robert F. Green, Assistant Commanding Officer, Operations-South 
  Bureau, Los Angeles Police Department
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Richard W. Stanek, Sheriff, Hennepin County, MN
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Tim King, Founder and Chief Executive Officer, Urban Prep 
  Academies
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Constance L. Rice, Co-Director/Attorney, Advancement Project
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Statement of the United States Department of Justice submitted by 
  the Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     3

 
                          BEYOND THE STREETS: 
                     AMERICA'S EVOLVING GANG THREAT

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Forbes, Chaffetz, 
Gowdy, Adams, Scott, Johnson, Chu, and Quigley.
    Staff Present: (Majority) Caroline Lynch, Subcommittee 
Chief Counsel; Toni Angeli, Counsel; Lindsay Hamilton, Clerk; 
(Minority) Bobby Vassar, Subcommittee Chief Counsel; Ron 
LeGrand, Counsel.
    Mr. Sensenbrenner. The Subcommittee will come to order. 
Without objection, the Chair will be authorized to declare 
recesses during votes in the House.
    Today's hearing examines the ongoing threat posed by gangs 
and the evolution of gangs in America. Over the past 20 or more 
years, gangs have evolved from localized criminal organizations 
to international criminal enterprises vying for control of 
sophisticated criminal schemes, often with the threat or use of 
violence.
    Today, gangs are increasingly engaged in non-traditional 
gang-related crimes such as alien smuggling, human trafficking 
and prostitution. Gangs are also engaging in white-collar crime 
such as counterfeiting, identity theft and mortgage fraud. They 
have become transnational criminal organizations and compete 
with many other criminal organizations.
    According to the 2011 National Gang Threat Assessment, 
there are approximately 1.4 million gang members belonging to 
more than 33,000 gangs in the United States. It has been 
reported that the number of gang members in the U.S. increased 
by 40 percent since 2009.
    Today's tough economic environment has made it even easier 
for gangs to recruit new members. In the year 2000, more than 
50 percent of all American teens had a job. Last summer, less 
than 30 percent had a job. More teenagers on the streets with 
nothing to do fosters opportunities that gangs now have to 
increase their membership.
    As the traditional family unit continues to change in 
America, young people seek a sense of belonging. For many 
teenagers, a gang becomes a new family for them. Unfortunately, 
the values taught by these new families include aggression, 
brutality and violence.
    Another significant threat is the acquisition of high-
powered military-style weapons and equipment by gangs. 
Typically, gangs acquire firearms through illegal purchases, 
straw purchases and thefts. Gang members also target military 
and law enforcement officials' facilities and vehicles to 
obtain weapons and ammunition, body armor, police badges, 
uniforms, and official identification. This increases the 
potential for lethal encounters with law enforcement officers 
and civilians.
    Gangs continue to evolve and become more violent. According 
to the FBI, gangs are responsible for an average of 40 percent 
of violent crime in most jurisdictions, and up to 90 percent in 
several others. Gangs are also becoming more sophisticated, 
employing new and advanced technologies to facilitate criminal 
activity discreetly and to enhance their criminal operations. 
They use the latest methods of communication to connect with 
other gang members, criminal organizations, and potential 
recruits nationwide and worldwide.
    Accordingly, the current threats posed by gangs are quite 
serious. There are many stories of success which I hope will 
reverse the current trend. In 2007, the City of Los Angeles, 
with the recommendations of the Advancement Project, 
implemented two programs aimed at reducing gang violence. In 
just 5 years, these programs have significantly decreased the 
number of homicides and violent crimes in city parks that are 
located in so-called gang violence hot zones.
    Sometimes community policing and intervention must give way 
to enforcement and suppression due to the frequency and 
intensity of gang violence. Chicago is in the grips of a deadly 
gang war. Over 275 people have been killed in Chicago so far 
this year, and many more have been shot, many of them innocent 
bystanders to the gang violence. The Chicago Police Department 
has 200 officers assigned to its gang enforcement unit, versus 
100,000 gang members in Chicago. Last month, Chicago Police 
Sergeant Matt Little likened Chicago's gang problem to tribal 
warfare. He said, ``It continues to build unless we manage to 
interdict it and manage to stop it long enough for the blood to 
stop boiling and the heat to die down.''
    This discouraging situation will hopefully be tempered by 
efforts by educators such as Mr. King, who are working hard to 
reduce the susceptibility of recruitment by gangs. Other large 
U.S. cities are experiencing varying degrees of success in 
addressing recruitment into gangs and gang-related crimes. This 
hearing will explore the tools available to address gang 
recruitment, crime and violence, which range from enforcement 
and suppression to community policing and intervention, and are 
often a combination of both. The hearing will specifically 
examine the evolving gang threats in Chicago, parts of 
Minnesota, and Los Angeles.
    We are joined today by four witnesses who have dedicated 
their efforts to put a stop to violent gangs and to prevent the 
recruitment of America's youth into these criminal 
organizations. I look forward to hearing about their 
experiences and successes in addressing this serious national 
challenge.
    Without objection, the statement of the Department of 
Justice will be submitted into the record at this point.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Sensenbrenner. It is now my pleasure to recognize for 
his opening statement the distinguished Ranking Member of the 
Subcommittee, Congressman Bobby Scott, who has made one of the 
50 Most Beautiful People on the Hill. [Laughter.]
    Mr. Scott?
    Mr. Scott. Since you're going to mention that, I also made 
the 50--the 25 Hardest Working. I made that list, too, a couple 
of years ago. [Laughter.]
    Mr. Sensenbrenner. I agree with that.
    Mr. Scott. Okay, thank you. Thank you, Mr. Chairman. I want 
to thank you for scheduling this hearing on gangs.
    As you and the longer-serving Members of this Subcommittee 
are aware, preventing violence and crime by young people, 
particularly gang violence and crime through gangs, has been an 
issue which we have worked on for a significant amount of time 
since I've been in Congress.
    We have recently passed through the Judiciary Committee a 
reauthorization of the Juvenile Accountability Block Grant 
Program, which resulted from a collaborative effort with former 
Crime Subcommittee Chairman Bill McCollum of Florida and every 
Member of the Subcommittee, with each Member on both sides 
serving as co-sponsors. The bill was first passed in the 
Committee in 1999. It was passed from the Committee a total of 
six times with the help of former Crime Subcommittee Chairman 
Smith and Cobles during their terms there and beyond.
    We have also led or supported reauthorization of the 
Juvenile Justice and Delinquency Prevention Act of 1974 on 
several occasions.
    Unfortunately, despite what the science and evidence 
strongly say, my 35 years of experience as a legislator at the 
state and Federal level has been one that, when it comes to 
crime policy, we almost never pay any attention to science and 
evidence. That is why we have seen a 90 percent reduction in 
the amount of money spent on prevention and intervention since 
2000, and that is why we have not been able to pass legislation 
such as the Youth Promise Act.
    When it comes to crime, we have a choice. We can do what 
the science and evidence says and reduce crime, or we can 
participate in the politics of crime. The politics of crime 
involve the tough-on-crime slogans and sound bites, such as 
poll-tested slogans like ``three strikes and you're out,'' 
``abolish parole,'' ``truth in sentencing,'' ``mandatory 
minimum sentences,'' or if we can get it to rhyme, it's even 
better, ``if you do the adult crime, you do the adult time.'' 
Research and evidence show us that while these tough-on-crime 
approaches sound good, they range from having little to do with 
preventing crime to actually increasing the crime rate.
    Under the get-tough-on-crime approach, no matter how tough 
we were last year, you have to get tougher this year, and we 
have been getting tougher year by year for about 30 years now, 
since 1980. We have gone from around 200,000 prisoners 
incarcerated in the United States to over 2 million, with 
annual costs going up accordingly.
    As a result of these approaches, today the United States is 
the world's leading incarcerator, by far, with an incarceration 
rate 7 times that of the international average. The world 
average is about between 50 and 200 prisoners per 100,000. The 
rate in the United States is over 700 per 100,000, African 
Americans at about 2,200. Ten states lock up Blacks at the rate 
of almost 4,000 per 100,000. And yet, the violence and crime 
and gangs persist, and we can look at what is happening in 
Chicago and New Orleans, we can show that it is growing.
    Regardless of all the people we have incarcerated from our 
tough-on-crime approaches, the situation still persists. 
Research as well as common sense tells us that no matter how 
tough we are on people we prosecute today, unless we are 
addressing the underlying reasons for crime, young people will 
follow the same trajectory and nothing will change. The next 
crime cohort will simply replace the ones we take out and crime 
continues, so just getting tough will not reduce crime.
    All the credible research and evidence shows that a 
comprehensive strategy of evidence-based interventions and 
supports aimed at at-risk youth will greatly reduce crime. They 
will save much more money than they cost when compared to money 
that otherwise would have been spent on law enforcement and 
other criminal justice and social welfare system costs.
    These approaches are the most effective when provided in a 
context of a coordinated, collaborative strategy involving law 
enforcement, education, social services, mental health, non-
profit, faith-based and other groups, business representatives 
who work with identified children at risk of involvement with 
the criminal justice system. We saw a demonstration of this in 
my district, in the City of Richmond, Virginia, through a grant 
program costing $2.5 million from the Federal Gang Reduction 
Program, a collaborative effort of Federal, state and local 
governments and community organizations that established an 
anti-gang strategy which reduced the murder rate in the 
targeted area from 19 to 2.
    Due to medical advances, there are about four to five times 
more shooting victims that survive for every one that dies. So 
the 19 murders represented about 80 shootings, all of which 
were likely to be indigent care patients of the Medical College 
of Virginia emergency facility in Richmond. When you compare 
the cost of 80 shootings to that of around 8, the difference 
alone probably saved more than $2.5 million, and when you add 
the fewer arrests, prosecutions and incarcerations, the savings 
really add up.
    Los Angeles had a similar pilot project and experienced 
similar results, so much more of that has become part of the 
foundation for establishing its comprehensive city-wide, anti-
gang program, which we will hear about today.
    So as we look at issues of growing threats from gang crime 
in this country, I believe that we again will be faced with a 
choice of doing what has been proven to reduce crime or what 
has proven to be good politics, and unfortunately the two do 
not match. I can only hope that we will consider seriously this 
time the science, evidence, and demonstrated effectiveness 
which I expect we will hear about today as to what has been 
proven to be effective and what has not.
    This does not mean that we stop addressing serious crimes 
with strong law enforcement. We must do that, and we will 
continue. But it simply means that we shouldn't stop there. We 
need to focus on fewer crimes being committed.
    So, thank you, Mr. Chairman, and I look forward to the 
testimony of the witnesses.
    Mr. Sensenbrenner. Thank you very much.
    It is now my pleasure to introduce today's witnesses.
    Commander Bob Green has been the Assistant Commanding 
Officer of Operations, South Bureau of the LAPD, since 2010. 
Previously he held many other positions with the LAPD. He 
became a police student worker in 1978 and entered the Police 
Academy in 1980. Commander Green was promoted to Lieutenant in 
1999 and assigned as a watch commander. In 2004, Commander 
Green was promoted to Captain and was assigned as a Patrol 
Commanding Officer. The following year, Commander Green was 
promoted to Captain 2, and assigned as the Commanding Officer 
LAPD Field Services Division at the Los Angeles International 
Airport. In 2007, he was promoted to Captain 3.
    Commander Green attended Cal State University at Long 
Beach, the Loyola Marymount University and Union Institute. He 
holds an Associate Arts degree in Administration of Justice and 
a Bachelor of Science degree in Law Enforcement Leadership and 
Management.
    Sheriff Richard Stanek is the 27th Sheriff of Hennepin 
County, Minnesota, which is the largest county there. He was 
first sworn in on January 1, 2007 and was reelected in 2010. In 
January, Sheriff Stanek began a 2-year term as President of the 
Major County Sheriffs' Association. He serves on the Board of 
Directors of the National Sheriffs' Association and co-chairs 
the NSA Homeland Security Committee, as well as being active in 
the International Association of Chiefs of Police.
    Sheriff Stanek began his career in the Minneapolis Police 
Department. He rose through the ranks from patrol officer, 
detective, precinct commander, to Commander of Criminal 
Investigations.
    While a police officer, Sheriff Stanek was elected five 
times to the Minnesota House of Representatives, and he chaired 
the House Crime Policy and Finance Committee. In 2003, he was 
appointed by the governor as Commissioner of Public Safety and 
Director of Homeland Security.
    He earned a Criminal Justice degree from the University of 
Minnesota and a Master's degree in Public Administration from 
Hamline University.
    Tim King is the Founder, President and CEO of Urban Prep 
Academies, a non-profit organization operating a network of 
public college prep boys' schools in Chicago, including the 
Nation's first all-male charter high school and related 
programs aimed at promoting college success. Mr. King also 
serves as an adjunct lecturer at Northwestern University and 
has contributed to the Chicago Tribune, the Chicago Sun-Times, 
and the Huffington Post.
    He holds a doctorate honoris causa from the Adler School 
and received a Bachelor of Science in Foreign Service and Juris 
Doctor degrees from Georgetown.
    Ms. Constance Rice has been co-director and attorney at the 
Advancement Project since 1998. She is also a partner at 
English Munger and Rice. Previously, she spent 9 years in the 
Los Angeles office of the NAACP Legal Defense and Educational 
Fund. Prior to this position, she was President of the Board of 
Commissioners at the Los Angeles Department of Water and Power, 
Special Assistant to the Associate Vice Chancellor at UCLA, and 
previously was an associate attorney at Morrison and Foerster. 
She received her Bachelor of Arts degree from Harvard and her 
J.D. degree from NYU.
    Without objection, all of your statements will be printed 
in full in the record. Without objection, all Members' opening 
statements will be printed in the record.
    As you know, we ask you to summarize your testimony in 5 
minutes. There will be lights in front of you to coach you when 
your time is up.
    The Chair recognizes Commander Green.

  TESTIMONY OF ROBERT F. GREEN, ASSISTANT COMMANDING OFFICER, 
     OPERATIONS-SOUTH BUREAU, LOS ANGELES POLICE DEPARTMENT

    Mr. Green. Good morning, Mr. Chairman, council members. It 
is an honor to be here. I think it is important I put my 
testimony in context. For three decades, I have done very 
aggressive law enforcement work in Los Angeles. I believed that 
it was all about handcuffs and, as Ms. Rice would say, shock 
and awe.
    We spiked in violent crime during the late '80's and early 
'90's in Los Angeles, and we were seen as the murder capital of 
the country, and we responded with very aggressive suppression. 
We would bring in 500 cops to an area of the city, and anything 
that looked like criminal activity we would address, a lot of 
citations, a lot of people went to jail.
    For a short period of time it reduced violence and gang 
violence. But overwhelmingly, we eroded our relationship with 
the community, we lost community trust, which ultimately set 
the stage for the civil unrest in Los Angeles in 1992.
    We struggled with our programs for about 10 years, and in 
2007, with the leadership of Ms. Rice, the Urban Peace 
Institute, the Advancement Project came together with our 
strategy and call to action in Los Angeles, and Mayor 
Villaraigosa followed that up with his gang initiatives and 
established the Gang Reduction Youth Development Office.
    For me initially, it was extraordinarily distasteful that I 
would have to partner with ex-offenders and Shot Callers to 
reduce violent crime. I sit humbly before you today saying that 
I could not have been more wrong. Based on those relationships 
with the ex-offenders, the wrap-around programs that we have in 
Los Angeles, we have reduced crime dramatically, and gang 
crime.
    To have intervention workers respond after a shooting in 
partnership, true partnership with law enforcement to reduce 
potential additional shootings or retaliation shootings has 
been very, very successful. Building those relationships with 
people that have influence in a neighborhood that we do not has 
paid significant dividends.
    The Community Engagement Programs, Summer Night Lights, 
where we bring in gang members, community members, law 
enforcement and intervention workers together at a recreation 
center to role model expected behavior has been very 
successful.
    The Community Safety Partnership, we have gone into four of 
the most troubled housing developments in the City of Los 
Angeles. We have put 10 cops in each one of those developments, 
not for suppression but for community programs. In the 8 months 
that they have been in existence, we have seen a dramatic 
reduction in crime. But most importantly, we have seen an 
unprecedented improvement in the relationship between those 
communities and law enforcement.
    The Watts Gang Task Force, where we used to have nothing 
but conflict and finger pointing, has been impressively 
successful in our ability to get along and ensure progress.
    Now, that doesn't mean that suppression has gone out the 
window. Suppression is an important element, but it needs to be 
strategic, and it needs to be done in a partnership with the 
community, with the community, not for the community.
    Our Federal partnerships and local partnerships with the 
City Attorney's Office and District Attorney's Office for 
injunctions and enhancements is a vital part of the overall 
cocktail that has helped in L.A. The FBI's programs for Save 
Our Streets Task Force has given us the ability in the last 2 
years to increase our homicide clearance rate by 20 percent, to 
an unprecedented 80 percent, which is important because once an 
individual starts to shoot, there is nothing to slow him down. 
So the quicker we can get that individual off the street and 
target just the violent offenders, the better off we are, and 
we are able to reduce additional shootings and homicides.
    The Safe Street Partnership working with our gang officers 
to give us additional logistics and technology and financial 
support is critical to us. The relationships with the DEA and 
ATF on these task forces to be able to partnership and have 
strategic suppression for violence, not just for gang 
suppression but for the violent element in that community, to 
remove them from the community so they can't continue to 
offend, we have got to do all that with wrap-around.
    The ability to work with Shot Callers, ex-gang members, in 
partnership with law enforcement does tremendous things when we 
walk into recreation centers, and even walk up and hug a thug, 
and he can hug a cop. That's what we call it. But ultimately, 
that role modeling has done tremendous things for us in our 
ability to establish those relationships in the community.
    So as we move forward in L.A., we will continue strategic 
suppression, but without a doubt, the intervention prevention 
programs are the root of a lot of our success now in Los 
Angeles.
    [The prepared statement of Commander Green follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Sensenbrenner. Thank you very much, Commander. Believe 
me, your reputation has come in advance of you here, and we are 
happy to see something that works rather than hear about things 
that don't.
    Sheriff Stanek.

           TESTIMONY OF RICHARD W. STANEK, SHERIFF, 
                      HENNEPIN COUNTY, MN

    Mr. Stanek. Well, thank you, Chairman Sensenbrenner, 
Ranking Member Scott, and Members of the Subcommittee. Thank 
you for the opportunity to be here today. I am Rich Stanek, 
Sheriff of Hennepin County. I am here today on behalf of the 
National Sheriffs' Association, where I serve on the Board of 
Directors, and I am the Chair of their Homeland Security 
Committee. This year I also began a 2-year term as President of 
the Major County Sheriffs' Association.
    I have been asked to testify today about the specific 
emergence of Somali gang-related issues we are having in my 
county. The Minnesota Somali population has been estimated in 
the range of 80,000 to 125,000, and the majority of them live 
in Hennepin County. Whereas the African population represented 
4 percent in the United States in 2008, in Minnesota Africans 
represent 18 percent of our population because Minnesota is a 
designated U.S. refugee resettlement area.
    I would like to state for the record that the Somali 
community as a whole is made up of law-abiding citizens who 
came to Minnesota as refugees and are now an important part of 
our community.
    Mr. Chair and Members, Somali gangs are unique in that they 
are not necessarily based on the narcotics trade, as are other 
traditional gangs. The most successful gang prosecutions 
require a narcotics nexus. Somali gang criminal activities are 
not based on a certain geographical area or turf. The gang 
members will often congregate in certain areas but commit their 
criminal acts elsewhere. The criminal acts are often done in a 
wide geographic area that stretches outside of the Twin Cities 
seven-county metro area, and their mobility has made them 
difficult to track.
    Mr. Chair and Members, let me describe several typical 
crimes committed by Somali gangs. First, credit card fraud. 
Recently, Somali gangs have committed a high volume of credit 
card skimming and credit card fraud. Credit card skimming is a 
high-reward and a low-risk crime. The skimming is done by 
acquiring a skimming device, computer, and the necessary 
software. In Minnesota, we are seeing trends where gangs 
recruit individuals, often restaurant employees, to perform 
skimming during work hours, and then give the skimming device 
back to the gang members.
    These cases are difficult for law enforcement, often 
requiring a large amount of time since the cards are often not 
used locally. In credit card fraud cases, an investigator must 
find a victim and the location of the initial skimming. There 
can be numerous victims from one skimming operation. 
Surveillance video is necessary, and computer forensics are 
essential in order to identify suspects.
    A second would be witness intimidation. Somali gangs 
readily engage in witness tampering and intimidation. In Somali 
culture, if a crime is committed against a family, clan or 
tribe, remittances are paid to family members. Somalis in 
Hennepin County have continued this remittance payment 
practice. We have learned that victims' families often prefer 
to negotiate financial remittances rather than follow through 
with judicial prosecution. Oftentimes, the payments are made 
directly to relatives in Somalia.
    This remittance payment continues to interfere in the 
successful prosecution of gang members, and witness 
intimidation by Somali gang members has become an ongoing 
threat to successful prosecutions. In a recent homicide trial 
in Hennepin County, a witness recanted his earlier testimony, 
and another witness refused to return from London in order to 
testify. We believe there were direct threats of violence made 
to witnesses and family members. The suspect in this case, a 
known Somali gang member, was tried but acquitted by a jury. 
The homicide is believed to have been in retaliation for 
previous testimony provided by opposing gang members in another 
homicide.
    The third are gun store burglaries. In July of 2008, a gun 
store in Minnetonka, Minnesota was burglarized. The suspect 
took 57 handguns. Through the investigation, it was determined 
that the guns were taken by members of the Somali Outlawz. 
Through tracking the recovered guns, it was determined that the 
majority of guns were either traded or sold to other known gang 
members. These same guns were then used in homicides, 
aggravated assaults, shootings and robberies. Twenty-seven of 
those stolen handguns have yet been recovered.
    Fourth is a terrorism nexus to gang activity. In 2007, a 
local Somali community started to report that some of the youth 
in the area had essentially disappeared without warning. It was 
later learned that 20 young men had left Minneapolis to travel 
to Somalia to receive training and fight as members of al-
Shabaab. One individual had moved to Minneapolis as a teenager 
in 1983, and following a shoplifting arrest he fell into the 
violent street gang called the Somali Hot Boyz. After a short 
period of time, he emerged as a recruiter for al-Shabaab, which 
eventually led him to leave Minneapolis for the Horn of Africa 
in 2008. Later it was learned this individual was killed in 
fighting between al-Shabaab and Somali government forces.
    Mr. Chair and Members, in conclusion, the Somali gangs have 
emerged as a serious threat to community safety both in 
Hennepin County and as a unique challenge to our law 
enforcement resources. These gangs are involved in multiple 
criminal activities that require sophisticated and resource-
intensive law enforcement investigations. They are growing in 
influence and violence. They demonstrate the importance of 
multi-jurisdictional law enforcement information sharing, and 
practice certain cultural behaviors that render some 
traditional U.S. criminal justice tools less effective. We are 
clearly faced with a challenge that requires an innovative 
approach, including new investigative tools and focused 
resources.
    Mr. Chair and Members, I look forward to working with 
Congress and our law enforcement partners to identify and 
implement smart and cost-effective solutions. I am happy to 
answer any questions you might have. Thank you very much.
    [The prepared statement of Sheriff Stanek follows:]
               Prepared Statement of Richard W. Stanek, 
                  Sheriff, Hennepin County, Minnesota
    Chairman Sensenbrenner, Ranking Member Scott, and members of the 
Subcommittee, thank you for the opportunity to be here today. I am Rich 
Stanek, Sheriff of Hennepin County in Minnesota. I am here today on 
behalf of the National Sheriffs' Association where I serve on the Board 
of Directors and am the Chair of the Homeland Security Committee. I 
currently serve on the Department of Homeland Security's Inter-agency 
Threat Assessment and Coordination Group and this year, I also began a 
two-year term as President of the Major County Sheriffs' Association.
    I have been asked to testify today about the specific emergence of 
Somali gang related issues we are having in my county. Minnesota's 
Somali population has been estimated in the range of 80,000 to 125,000 
and a majority of them live in Hennepin County. Whereas the African 
population represented 4% in the United States in 2008, in Minnesota, 
Africans represent 18% of our population because Minnesota is a 
designated U.S. Refugee Resettlement Area. I would like to state for 
the record that the Somali community as a whole is made up of law 
abiding citizens, who came to Minnesota as refugees and are now an 
important part of our community.

Why are Somali gangs unique?
    Somali gangs are unique in that they are not necessarily based on 
the narcotics trade as are other traditional gangs. Most successful 
gang prosecutions require a narcotics nexus. Somali gang criminal 
activities are not based on a certain geographical area or turf. Gang 
members will often congregate in certain areas, but commit their 
criminal acts elsewhere. Criminal acts are often done in a wide 
geographic area that stretches outside of the Twin Cities seven county 
metro area. Their mobility has made them difficult to track.

Typical Crimes committed by Somali Gangs include the following:
    First, Credit Card Fraud: Recently, Somali gangs have committed a 
high volume of credit card skimming and credit card fraud. Credit card 
skimming is a high reward, low risk crime. The skimming is done by 
acquiring a skimming device, computer, and necessary software. In 
Minnesota we are seeing trends where gangs will recruit individuals, 
often restaurant employees, to perform the skimming during work hours 
and then give the skimming device back to the gang member.
    These cases are difficult for law enforcement, often requiring a 
large amount of time since the cards are often not used locally. In 
credit card fraud cases, an investigator must find a victim and the 
location of the initial skimming. There can be numerous victims from 
one skimming operation. Surveillance video is necessary and computer 
forensics are essential in order to identify suspects. United States 
commerce is far behind other countries in credit card security. 
Encrypted chip technology is proposed to begin use in the United States 
in 2013.
    Sadly, because the sentences for credit card skimming are short, 
criminals are less concerned with the legal consequences. The resources 
needed to investigate credit card fraud and the sentencing guidelines 
make enforcing these laws very challenging.
    Second, Cell Phone Store Burglaries: Cell phone stores in Minnesota 
also have been targeted by suspected Somali gang members where suspects 
smash the glass of the front doors, move to storage areas and target 
high-end smart phones. They can be in and out of the store in less than 
2 minutes. Suspects have learned to travel to different metro areas in 
the United States to avoid the heightened awareness of law enforcement 
in certain communities.
    One strategy we've implemented is to work with cell phone companies 
to identify security weaknesses at their retail venues. One weakness we 
found was in the handling of merchandise stock overnight. Phones were 
not being placed in vaults, making them easy targets. By moving their 
stored phones into vaults a number of stores have reduced their risk 
for stolen merchandise.
    Third, Witness intimidation: Somali gangs readily engage in witness 
tampering and intimidation. In Somali culture, if a crime is committed 
against a family, clan, or tribe, remittances are paid to family 
members. Somalis in Hennepin County have continued this remittance 
payment practice. We've learned that victims' families often prefer to 
negotiate financial remittances rather than follow through with 
judicial prosecution. Oftentimes the payments are made directly to 
relatives in Somalia. This remittance payment continues to interfere in 
the successful prosecution of gang members.
    Witness intimidation by Somali gang members has become an ongoing 
threat to successful prosecutions. In a recent homicide trial in 
Hennepin County, a witness recanted his earlier testimony, and another 
witness refused to return from London in order to testify. We believe 
there were direct threats of violence made to witnesses and family 
members. The suspect in the case, a known Somali gang member, was 
tried, but acquitted by a jury. The homicide is believed to have been 
retaliation for previous testimony provided by opposing gang members in 
another homicide.
    Fourth, Gun Store Burglaries: In July of 2008, a gun store in 
Minnetonka, Minnesota, was burglarized; the suspects initially cut the 
alarm and telephone lines and waited for law enforcement response. 
After law enforcement and management had cleared the area, the suspects 
returned and committed the burglary. The suspects took 57 handguns. 
Through the investigation it was determined that the guns were taken by 
members of the Somali Outlawz. Through tracking of recovered guns, it 
was determined that the majority of guns were either traded or sold to 
other known gang members. These same guns were then used in homicides, 
aggravated assaults, shootings, and robberies. Twenty seven of the 
stolen handguns have not yet been recovered.
    Fifth, Terrorism Nexus to Somali Gang Activity: In 2007, the local 
Somali community started to report that some of the youth in the area 
had essentially disappeared without warning. It was later learned that 
20 young men had left Minneapolis to travel to Somalia to receive 
training and fight as members of al-Shabaab. One individual had moved 
to Minneapolis as a teenager in 1993. Following a shoplifting arrest, 
he fell into the violent street gang called the ``Somali Hot Boyz''. 
After a short period of time, he emerged as a recruiter for al-Shabaab 
which eventually led him to leave Minneapolis for the Horn of Africa in 
2008. Later, it was learned this individual was killed in fighting 
between al-Shabaab and Somali government forces.
    In conclusion: Somali gangs have emerged as a serious threat to 
community safety in Hennepin County and a unique challenge to law 
enforcement. These gangs are involved in multiple criminal activities 
that require sophisticated and resource-intensive law enforcement 
investigations, are growing in influence and violence, demonstrate the 
importance of multi-jurisdictional law enforcement information sharing, 
and practice certain cultural behaviors that render some traditional 
U.S. criminal justice tools less effective. We are clearly faced with a 
challenge that requires an innovative approach including new 
investigative tools and focused resources.
    I look forward to working with Congress and our law enforcement 
partners to identify and implement smart and cost-effective solutions, 
and I am happy to answer any questions you might have.
    Thank you,
                               __________

    Mr. Sensenbrenner. Thank you, Sheriff.
    Mr. King.

              TESTIMONY OF TIM KING, FOUNDER AND 
         CHIEF EXECUTIVE OFFICER, URBAN PREP ACADEMIES

    Mr. King. It is a tremendous honor to be asked to give 
testimony to the House Judiciary Subcommittee on Crime, 
Terrorism and Homeland Security, and to be able to offer a 
perspective from the field of education. For that opportunity, 
I would like to thank the Chairman, the Vice Chair, as well as 
Ranking Member Scott and the other Members of the Subcommittee. 
I would also like to recognize Representative Quigley of the 
Illinois 5th Congressional District, who is no doubt familiar 
with the issues affecting our city.
    Chicago is in a profound state of crisis. With every 
weekend comes another round of bloodshed. Between June 22nd and 
the 24th, four people were killed, including two boys aged 13 
and 14, and 30 were wounded. Between June 29th and July 1st, 17 
people were wounded, including a 3-year-old and 9-year-old. 
Nine people were killed. So far this year, more Americans have 
been murdered in the streets of Chicago than in service in 
Afghanistan. Chicago has seen four times as many murders since 
January as New York City, and last week, as the country awoke 
to the intensely tragic news that a mass gunman had opened fire 
in a Colorado movie theater, I was learning that two teenagers 
in Chicago had been killed and another wounded. That wounded 
teenager is a rising senior at Urban Prep named Demarcus Brown.
    I founded Urban Prep Academies, the country's first network 
of all boys' charter public high schools, in large part as a 
response to some of the factors that are currently playing out 
in the form of this summer's violence. Since our founding, 100 
percent of Urban Prep's graduates have been admitted to 
college. This is a major accomplishment for any school. But 
given that all of our graduates are African American males, and 
that there are exceptional challenges facing this population, 
the achievement is even more significant.
    In order to shed light on the state of affairs of being a 
young Black male in a violence-filled community, Urban Prep's 
sophomore, Yaviel Ivey, was recently asked to record a month-
long video diary for CBS News. Toting a camcorder on his way to 
and from school, Mr. Ivey chronicled the daily violence he 
witnessed. ``I don't expect to have a future in my 
neighborhood. I want better for myself,'' he said in one entry. 
In another entry, Mr. Ivey told about being asked by a gang 
member what gang he was affiliated with, narrowly escaping when 
he responded that he was neutral.
    There are as many as 600 Chicago gangs, with approximately 
150,000 members. Mr. Ivey comes from a home in which he is 
loved and supported. He is a straight-A student who wants to 
become an entrepreneur. Yet, even the advantages of family, 
intellect and ambition cannot protect him from the violence 
that threatens his community. For Mr. Ivey, like so many other 
young people, simply walking out of the front door can be a 
dangerous undertaking.
    To address this problem, we must offer hope to communities 
and people plagued by violence. The only way we will staunch 
the violence is to persuade those committing violent acts that 
they have something to lose, that there are opportunities for 
enjoyment and advancement that don't come at the expense of 
those around them, that there are paths to respect that don't 
go through fear.
    But hope is not enough. We need further support for schools 
like Urban Prep and others that are committed to educating our 
cities' most vulnerable children. We need engaged community 
organizations, empathetic law enforcement, and government that 
invests heavily in the well-being of its citizens.
    In the end, what we need is action, action that will ensure 
that all children, all Americans are safe. Demarcus, the Urban 
Prep student who was shot last week, is still in the hospital. 
His older brother Eric was also an Urban Prep student. I say 
``was'' because he graduated this past year, having been 
accepted to college, to multiple colleges, and receiving the 
Gates Millennium Scholarship, which will cover all of his 
college and graduate school expenses. This fall, he will be 
enrolled in Howard University right here in our Nation's 
Capital. What a tragic juxtaposition, one brother on his way to 
college, and another in the hospital fighting for his life.
    Eric Brown is proof that it is possible to end these cycles 
of violence one child at a time. His younger brother Demarcus 
is a tragic reminder of what happens if we do not. Thank you.
    [The prepared statement of Mr. King follows:]
 Prepared Statement of Tim King, Founder and Chief Executive Officer, 
                          Urban Prep Academies
    It is a tremendous honor to be asked to give testimony to the House 
Judiciary Subcommittee on Crime, Terrorism and Homeland Security, and 
to be able to offer a perspective from the field of education. For that 
opportunity, I would like to thank Chairman Sensenbrenner, Vice-Chair 
Gohmert, Ranking Member Scott, and the other members of the 
Subcommittee. I would also like to offer special thanks to 
Representative Quigley of the Illinois 5th District, who is no doubt 
familiar with some of the issues that I will be discussing today.
    When we talk about violence in Chicago, the statistics that are 
regularly cited show a city in a profound state of crisis. With every 
weekend comes another round of bloodshed. Between June 22 and 24, four 
were killed, including two boys aged 13 and 14, and 30 were wounded.\1\ 
Between June 29 and July 1, 17 were wounded, including a three-year-
old, and nine were killed.\2\ So far this year, more Americans have 
been killed in the streets of Chicago than in service in Afghanistan 
\3\; Chicago has seen four times as many murders since January as New 
York City.\4\ And last week, as the country awoke to the profoundly 
tragic news that a masked gunman had opened fire in a Colorado movie 
theater, I was learning that in Chicago, three teenagers had been shot, 
including an Urban Prep student.
---------------------------------------------------------------------------
    \1\ Crimesider Staff, ``4 dead, 30 wounded in weekend Chicago 
violence intensifying search for answers,'' CBS News/AP [Chicago] 25 
Jun. 2012, 22 Jul. 2012 <http://www.cbsnews.com/8301-504083_162-
57459869-504083/4-dead-30-wounded-in-weekend-chicago-violence-
intensifying-search-for-answers>.
    \2\ ``Chicago Shootings: 3-Year-Old Boy Among At Least 17 Hurt, 9 
Killed In Weekend Gun Violence,'' Huffington Post 7 Jun. 2012, 22 Jul. 
2012 <http://www.huffingtonpost.com/2012/07/02/chicago-shootings-3-
year-_n_1643270.html>.
    \3\ Crimesider Staff, ``4 dead, 30 wounded in weekend Chicago 
violence intensifying search for answers,'' CBS News/AP [Chicago] 25 
Jun. 2012, 22 Jul. 2012 <http://www.cbsnews.com/8301-504083_162-
57459869-504083/4-dead-30-wounded-in-weekend-chicago-violence-
intensifying-search-for-answers>.
    \4\ David Knowles, ``Wild West in Chicago--City officials fight 
back as murder rate outstrips N.Y., L.A.--even Kabul,'' The Daily 15 
Jun. 2012, 22 Jul. 2012. <http://www.thedaily.com/page/2012/06/15/
061512-news-chicago-murders-knowles-1-3>.
---------------------------------------------------------------------------
    Urban Prep Academies, the country's first network of all-boys 
charter high-schools and the organization that I represent today, was 
created in large part as a response to some of the factors that are 
currently playing out in the form of this summer's violence. In 
Chicago, as in large cities around the country, minorities, especially 
Black males, are grossly overrepresented in prison populations \5\ and 
underrepresented in schools \6\ and places of work.\7\ The statistics 
tell a story of endemic disenfranchisement. The national high school 
drop-out rate for Black males hovers around 50 percent,\8\ and the 
leading cause of death for African-American males age 15 to 34 is 
homicide.\9\ Today, one in three Black children live in poverty,\10\ 
and one-third of Black men born this decade will spend some time in 
prison.\11\ In Chicago, just 2.5 percent of Black males attending 
public school will graduate from a four-year college.\12\
---------------------------------------------------------------------------
    \5\ ``Statistics on African-American males,'' The Morehouse Male 
Initiative 22 Jul. 2012 <http://morehousemaleinitiative.com/
?page_id=178>.
    \6\ Sean F. Reardon, Rachel Baker and Daniel Klasik, ``Race, 
income, and enrollment patterns in high selective colleges, 1982-
2004.'' Center For Education Policy Analysis at Stanford University 15 
Jul. 2012, 22 Jul. 2012 <http://cepa.stanford.edu/sites/default/files/
race%20
income%20%26%20selective%20college%20enrollment%20july16%202012.pdf>.
    \7\ United States, Department of Labor, The African-American Labor 
Force in the Recovery. (Washington: 2012) 22 Jul. 2012 <http://
www.dol.gov/_sec/media/reports/BlackLaborForce/BlackLaborForce.pdf>.
    \8\ ``Yes We Can: The Schott 50 State Report on Public Education 
and Black Males 2010,'' Schott Foundation for Public Education. Aug. 
2010, 22 Jul. 2012 < http://schottfoundation.org/publications/schott-
2010-black-male-report.pdf>.
    \9\ United States, Center for Disease Control, Leading Causes of 
Death by Age Group, Black Males-United States, 2007 (Washington: 2007) 
22 Jul. 2012, <http://www.cdc.gov/men/lcod/2007/BlackMales2007.pdf>.
    \10\ Kristin Anderson Moor, Zakia Redd, Mary Burkhauser, Kassim 
Mbwana and Ashley Collins, ``Children in Poverty: Trends, Consequences, 
and Policy Options,'' Apr. 2009, 22. Jul. 2012 <http://
www.childtrends.org/files/child_trends-
2009_04_07_rb_childreninpoverty.pdf>.
    \11\ ``Criminal Justice Fact Sheet'' NAACP 22 Jul. 2012 <http://
www.naacp.org/pages/criminal-justice-fact-sheet>.
    \12\ Melissa Roderick, Jenny Nagaoka, and Elaine Allensworth, 
``From High School to the Future: A First Look at Chicago Public School 
Graduates' College Enrollment, College Preparation, and Graduation from 
Four-Year Colleges,'' The University of Chicago Consortium on Chicago 
School Research Apr. 2006, 22 Jul. 2012 <http://ccsr.uchicago.edu/
publications/high-school-future-first-look-chicago-public-school-
graduates-college-enrollment>.
---------------------------------------------------------------------------
    Urban Prep's mission is simple: To provide a high-quality 
comprehensive education that results in our graduates succeeding in 
college. While our schools are still young, thanks to the efforts of 
our dedicated teachers, administrators, parents and students, Urban 
Prep is well on its way to increasing the number of African-American 
males who earn college degrees. Since our first senior class graduated 
in 2010, 100 percent of Urban Prep graduates (all Black males) have 
been admitted to college, and 83 percent are persisting in college, 
compared to a national persistence rate for Black males of 35 
percent.\13\ In 2010, the most recent year for which data is available, 
one in twenty African-American males enrolling in college from Chicago 
Public Schools was an Urban Prep graduate.\14\
---------------------------------------------------------------------------
    \13\ ``MCLD College Scholar Program,'' Milwaukee Center for 
Leadership Development. 22 Jul. 2012 <http://milwcld.org/page3.php>.
    \14\ ``2010 College Enrollment For the Class of 2010 Based on the 
National Student Clearinghouse Data For All Graduates,'' Chicago Public 
Schools 25 Apr. 2011: 1-11.
---------------------------------------------------------------------------
    It takes hard work to achieve these outcomes. Our students have a 
longer school day that results in an additional year of instruction 
when compared to traditional public schools, and are required to 
participate in at least one afterschool activity each semester. Many of 
our young men spend their summers in academic programs at universities 
like Cornell, Georgetown and Oxford. They are the heirs to a unique 
school culture that celebrates even the smallest achievements in order 
to reinforce our belief that doing the right thing is the right thing 
to do.
    Yet while Urban Prep students experience a safe-haven inside our 
schools, they still must often navigate treacherous streets in their 
communities. In order to shed more light on the state of affairs within 
one such community, rising Urban Prep sophomore Yaviel Ivey was 
recently asked to record a month-long video diary for CBS News.\15\ 
Toting a camcorder on his way to and from school as well as around his 
house, Mr. Ivey (in order to promote respect within our schools, we 
refer to our students by their surnames) chronicled the daily violence 
that is endemic to his neighborhood. ``I don't expect to have a future 
[in my neighborhood]. I want better for myself,'' he said in one entry. 
In another entry, Mr. Ivey told about being asked by a gang member what 
gang he was affiliated with (there are as many as 600 Chicago gangs 
with approximately 150,000 members \16\), narrowly escaping when he 
responded that he was neutral. Mr. Ivey comes from a home in which he 
is loved and supported. He is a straight-A student who wants to become 
an entrepreneur. Yet even the advantages of family, intellect, and 
ambition cannot protect him from the violence that threatens his 
community. For Mr. Ivey, like so many other young people, simply 
walking out of the front door can be a dangerous undertaking.
---------------------------------------------------------------------------
    \15\ Byron Pitts, ``Chicago teen on living amid violence: `I don't 
expect to have a future here','' CBS Evening News 12 Jun. 2012, 22 Jul. 
2012 <http://www.cbsnews.com/8301-18563_162-57452004/chicago-teen-on-
living-amid-violence-i-dont-expect-to-have-a-future-here>.
    \16\ Mark Guarino, ``In Chicago, heat and homicide stoke fear and 
frustration,'' Christian Science Monitor 18 Jul. 2012, 22 Jul. 2012 
<http://www.csmonitor.com/USA/Society/2012/0718/In-Chicago-heat-and-
homicide-stoke-fear-and-frustration>.
---------------------------------------------------------------------------
    And the danger is all too real. A year ago, Leonetta Sanders, the 
principal of Harper High School (located on Chicago's South Side just 
two miles from Urban Prep's Englewood Campus) started a list of current 
and former students who became victims of gun violence in a binder she 
kept in her office.\17\ This July, she added her 27th name, eight dead 
and 19 shot. Ms. Sanders says that at the end of the school year, her 
students will talk not about what they will do over the summer, but how 
many of them will survive to make it back next fall. Sadly, stories 
like this are typical of many Chicago public high schools.
---------------------------------------------------------------------------
    \17\ Fresh Air, WBEZ, Chicago, IL 9 Jul. 2012
---------------------------------------------------------------------------
    And the bullets wound many more in addition to those they strike. 
Research by the American Academy of Child and Adolescent Psychiatry has 
found that almost one-half of all American inner-city youth show signs 
of post-traumatic stress disorder.\18\ The fear of personal danger and 
the knowledge that loved ones may be taken at any point weigh heavily 
on the fragile psyches of our youth. Additionally, the steps many 
families take to safeguard their sons and daughters, including 
prohibiting them from going outside on their own, have unintended 
consequences as young people miss out on opportunities for exercise and 
personal enrichment.
---------------------------------------------------------------------------
    \18\ John Otrompke, ``Nearly Half of Inner-City Youth Suffer From 
Post-Traumatic Stress Disorder: Presented at AACAP,'' P/S/L Group 4 
Nov. 2010, 22 Jul. 2012 <http://www.pslgroup.com/dg/25bdd6.htm>.
---------------------------------------------------------------------------
    Urban Prep has always been a leading voice in demanding that 
greater attention be paid to addressing the problem of youth violence. 
And we have not been alone in seeking answers from our city, state, and 
federal governments. The leadership of other schools, as well as 
community groups, has fought for a stronger response to the violence 
sweeping our streets. We want to know what's being done to make our 
city safer. But before we have answers, we need to know that we're 
asking the right questions.
    We need to ask what kinds of events lead to violent crime in 
Chicago, because most of it is not, as some would have you believe, the 
result of gang warfare or drug-related robberies. Chicago Police 
Department data show that the most common homicide in Chicago begins as 
a nonviolent altercation, escalates into violence and involves 
guns.\19\ Clearly, Chicagoans need to learn that retribution isn't the 
answer, but they also need to know that justice will be served. Let's 
support interactions between the community and police force so that 
Chicagoans feel like their neighborhoods are being protected, not 
occupied. And let's increase the penalties for illegal weapon 
possession so that arguments can't turn so quickly into gunplay.
---------------------------------------------------------------------------
    \19\ ``Youth program helps curb violence,'' United Press 
International 13 Jul. 2012, 22 Jul. 2012 <http://www.upi.com/
Health_News/2012/07/13/Youth-program-helps-curb-violence/UPI-876613
42236140>.
---------------------------------------------------------------------------
    We need to ask how we might prevent crime from happening rather 
than reacting to its effects. Last year's popular documentary The 
Interrupters brought some much-deserved attention to CeaseFire, a group 
that works to end cyclical violence in some of Chicago's toughest 
neighborhoods. Using staff members who have cachet within the community 
to identify and reach out to those who might be at risk for violence, 
CeaseFire has been able to cool a number of hotspots in the 
disadvantaged neighborhoods of Englewood, Auburn Gresham and West 
Garfield Park. Earlier this month, Chicago Mayor Rahm Emanuel promised 
to provide funding for 90 additional CeaseFire staff members, and to 
instruct the Chicago Police Department to work more closely with 
CeaseFire identifying and reaching out to at-risk individuals.\20\
---------------------------------------------------------------------------
    \20\ Carol Marin and Don Moseley, ``Chicago Police, Ceasefire 
Prepare for Partnership,'' NBC5 Chicago. 9 Jul. 2012, 22 Jul. 2012 
<http://www.nbcchicago.com/news/local/chicago-police-ceasefire-tio-
hardiman-161873765.html>.
---------------------------------------------------------------------------
    We need to ask questions about the type of person most likely to 
become a victim or perpetrator, and then devise strategies to 
specifically impact these individuals. According to the University of 
Chicago Crime Lab, both victims and perpetrators of violent crimes are 
far likelier than not to be between the ages of 10 and 25, to be 
minorities, and to be male. In predicting the likelihood of involvement 
in a violent crime, the Crime Lab lists several non-demographic 
variables as well, most notably alcohol use, mental health problems, 
and ``perhaps particularly,'' school failure.\21\ Let's acknowledge 
that in Chicago, certain populations--young Black men particularly--are 
far more likely to be perpetrators and victims of violence. But instead 
of blaming these young people, let's develop and support outreach 
programs targeting these specific groups, so that they know that there 
are alternatives to gangbanging, and that if they follow the difficult 
path through high school and to college, they will be supported every 
step of the way.
---------------------------------------------------------------------------
    \21\ ``Report: Gun Violence Among School-Age Youth in Chicago,'' 
The University of Chicago Crime Lab 22 Jul. 2012 <http://
crimelab.uchicago.edu/page/report>.
---------------------------------------------------------------------------
    We need to ask what strategies already in place are having an 
effect on youth and gang violence, and how we can support them. A study 
released last week by the University of Chicago Crime Lab found that 
young men who participated in an athletics-based youth counseling 
program were 44 percent less likely to be arrested for violent crime 
while participating in the program.\22\ Investing in targeted programs 
like these is not only right; it is, in time of budgetary constraints, 
the fiscally responsible thing to do. The same University of Chicago 
study found that pro-social youth programming produces a return on 
investment of between three and thirty-one times over when compared to 
the societal cost of violence, incarceration and rehabilitation. Let's 
provide further support so that programs like these can be replicated, 
and new programs tested.
---------------------------------------------------------------------------
    \22\ William Harms, ``Study: Chicago counseling program reduces 
youth violence, improves school engagement,'' UChicagoNews 13 Jul. 
2012, 22 Jul. 2012 <http://news.uchicago.edu/article/2012/07/13/study-
chicago-counseling-program-reduces-youth-violence-improves-school-
engage
men>.
---------------------------------------------------------------------------
    We need to be able to empathize with those Chicagoans for whom 
violence and danger have become part of a devastating routine. These 
are individuals whose lives and choices are constrained by the constant 
threat of violence, who spend their time, like Leonetta Sanders, 
memorializing those that they have lost; or, like Yaviel Ivey, longing 
for a life outside the neighborhood; or like our students and others 
who have been shot or shot at, enduring the trauma and the long 
recovery of victimization. Put yourselves in their shoes. Imagine what 
it's like for the child who has to pass by streets where he might be 
attacked simply because of where he lives; for the mother who has to 
worry about not when but if her child will come home tonight; for the 
school that can't have outdoor recess or a hold a homecoming football 
game for fear of a drive-by shooting. If we cannot stem the violence, 
we condemn these innocents and others like them to suffer for crimes of 
which they had no part.
    We need to remember that this is not just a South Side problem, not 
just a Chicago problem, not just a problem for Illinois. The violence 
in one of America's greatest cities is an American problem. Harvard 
sociologist Bruce Western has pointed out that sixty percent of Black 
males who do not complete high school are either dead or have spent 
time in prison by the they're 34 years old.\23\ 60 percent--well over 
half--are dead or have spent time in prison by the age of 34. This 
isn't just a sickness within our city but a national epidemic, and we 
need to address it by pursuing strategies that will keep students in 
school until they graduate.
---------------------------------------------------------------------------
    \23\ Beckit Pettit and Bruce Western, ``Mass Imprisonment and the 
Life Course: Race and Class Inequality in U.S. Incarceration,'' 
American Sociological Review Apr. 2004: 151-169
---------------------------------------------------------------------------
    We need to learn from other cities that productive partnerships 
between the public and private sectors can mitigate violence before it 
becomes a police matter. This past fall, New York Mayor Michael 
Bloomberg and philanthropist George Soros matched $60 million from the 
City of New York to fund the Young Men's Initiative, which will target 
315,000 Black and Latino men between the ages of 16 and 24, with an eye 
towards improving graduation and employment rates while reducing 
criminal recidivism.\24\ The Young Men's Initiative recognizes that 
targeted programs are the best means to provide demographic-specific 
measures like job training and culturally relevant teaching. It also 
acknowledges that prevention is more cost-effective than response. In 
the past 30 years, the incarceration rate in the United States has 
quadrupled, to the point where the United States now has a higher 
percentage of its population and higher total number of individuals 
behind bars than any other country in the world.\25\ This is not only a 
burden on state and federal budgets, but is extremely disruptive to 
communities in which a large percentage of the population has spent 
time in prison.
---------------------------------------------------------------------------
    \24\ Karen Zraick, ``Young Men's Initiative, Program for Young 
Minorities, Draws Praise, Questions,'' Huffington Post 4 Aug. 2011, 22 
Jul. 2012 <http://www.huffingtonpost.com/2011/08/05/young-mens-
initiative-bloomberg_n_919181.html>.
    \25\ ``Prison Population Around the Globe,'' The New York Times 22 
Apr. 2008, 22 Jul. 2012 <http://www.nytimes.com/interactive/2008/04/22/
us/20080423_PRISON_GRAPHIC.html#>.
---------------------------------------------------------------------------
    We need to focus on that portion of the population--young minority 
men--most likely to commit and be victimized by violent crime, and in 
order to create targeted interventions, we need to go through the 
institutions that are already designed to impact these individuals. 
Schools are and must be our best means of breaking the cycle of 
violence that consumes so many young lives. We must equip our schools 
with the expertise and funding to provide enrichment activities that 
will give young people a safe place to spend the dangerous hours 
between 3:00 and 6:00 p.m.\26\ We have to see our schools not just as 
places where children go to learn, but as institutions that build 
communities and community-minded individuals. And we need to continue 
to support parents in their right to choose for their children 
whichever school they think will best suit their children's needs, 
whether that be a neighborhood, charter or magnet school.
---------------------------------------------------------------------------
    \26\ ``After-School Programs,'' Education Week 3 Aug. 2004, 22 Jul. 
2012 <http://www.ed
week.org/ew/issues/after-school-programs>.
---------------------------------------------------------------------------
    At Urban Prep, we've recognized the importance of connecting our 
students with mentors and tutors who can provide them with the extra 
academic and emotional support that they need. One of the ways that 
this is being accomplished is through the Urban Prep Fellows Program, 
which matches recent college graduates with cohorts of around 25 
freshmen. These men and women volunteer their time to serve our 
students and are models for the sort of engagement that we need to 
cultivate in our disadvantaged communities, but even they are not above 
the threat of danger. This past year, one of our Fellows, Will Morris, 
was mugged at gunpoint while he walked with two students to the train 
station. As I drove to visit him in the hospital (he suffered a broken 
nose and several other injuries), I was prepared to accept the fact 
that he would probably be dropping out of the program and heading home. 
I certainly wouldn't have blamed him if he had. Mr. Morris, however, 
didn't want to go home. He wanted to stay and continue to help our 
students thrive. His dedication and bravery should serve as an example 
to others, as should the courage of the students who were attacked with 
him. They too were committed enough to return to school and continue 
the pursuit of their education.
    Finally, we must offer hope to communities and people plagued by 
violence. The only way we'll staunch the violence is to persuade those 
committing violent acts that they have something to lose, that there 
are opportunities for enjoyment and advancement that don't come at the 
expense of those around them, that there are paths to respect that 
don't go through fear. But hope is not enough. We need further support 
for schools like Urban Prep and others that are committed to educating 
our cities' must vulnerable children. We need engaged community 
organizations, empathetic law enforcement, and government that invests 
heavily in the wellbeing of its citizenry. In the end, what we need is 
action--action that will ensure that all children, all Americans, are 
safe.
                    resources for further engagement
Alexander, Michelle. The New Jim Crow: Mass Incarceration in the Age of 
    Colorblindness. New York: The New Press, 2010. Print.

``Bam--Sports Edition: University of Chicago Crime Lab Research and 
    Policy Brief.'' The University of Chicago Crime Lab, 2012. Print.

Bruce, Mary; Bridgeland, John M.; Fox, Joanna Horig; Balfanz, Robert. 
    ``On Track for Success: The Use of Early Warning Indicator and 
    Intervention Systems to Build a Grad Nation.'' Civic Enterprises, 
    2011. Print.

``Reaching Black Boys.'' Catalyst Chicago and the Community Renewal 
    Society, 2009. Print.

``Failed Policies, Broken Futures: The True Cost of Zero Tolerance in 
    Chicago.'' Voices of Youth in Chicago Education, 2011. Print.

Kaba, Mariame and Edwards, Frank. ``Policing Chicago Public Schools: A 
    Gateway to the School-to-Prison Pipeline.'' Project NIA, 2012. 
    Print.

Kotlowitz, Alex. There Are No Children Here: The Story of Two Boys 
    Growing Up in the Other America. New York: Anchor, 1992. Print.

Kozol, Jonathan. Savage Inequalities: Children in America's Schools. 
    New York: Harper Perennial, 1992. Print.

Kozol, Jonathan. The Shame of the Nation: The Restoration of Apartheid 
    Schooling in America. New York: Crown, 2005. Print.

Petteruti, Amanda. ``Education Under Arrest: The Case Against Police in 
    Schools.'' Justice Policy Institute, 2011. Print.
                               __________

    Mr. Sensenbrenner. Thank you very much, Mr. King. This is 
very inspiring.
    Ms. Rice.

     TESTIMONY OF CONSTANCE L. RICE, CO-DIRECTOR/ATTORNEY, 
                      ADVANCEMENT PROJECT

    Ms. Rice. Good morning, Mr. Chairman. Thank you so much for 
having me, Congressman Scott, all the other Members. It is an 
honor to be here.
    I hail from Los Angeles, the gang capital of----
    Mr. Sensenbrenner. Can you move your mic a little closer to 
you, please?
    Ms. Rice. Okay. Can you hear me?
    Mr. Sensenbrenner. Is it on?
    Ms. Rice. Okay. Good morning.
    Mr. Sensenbrenner. Better.
    Ms. Rice. Okay, good. Thank you. Again, thank you for 
having me, and it is an honor to be here.
    Mr. King gave a very moving statement, and his work is 
critically important for one child at a time.
    I come from Los Angeles. There are over 100,000 gang 
members, 1,000 gangs. We spent $25 billion over 35 years, and 
we have six times as many gangs and at least three times as 
many gang members.
    You heard Commander Green talk about when we were at war. 
My first reaction to the fundamental belief that I have that 
the first civil right is the right to safety, the first freedom 
is freedom from violence. I am looking at children who die at 
the ages of 10 and 11 and get accosted by gangs. In L.A.'s gang 
hot spots, in L.A. County, we have over 850,000 innocent 
children trapped in gang hot spots that Commander Green and 
LAPD and the sheriffs have been patrolling and fighting and 
battling in a war.
    That war has cost us $35 billion, and we have far more of 
the problem. It is not that we didn't need very brave officers 
to combat, but it wasn't ending the gang mentality, it wasn't 
ending the spread of gang culture, and it was not ending the 
violence. The kids were more in danger than ever. The cops were 
more in danger. There have been over 60 officers murdered in 
our gang hot spots, and 100,000 Angelinos shot over the last 25 
years.
    When we took a look at this issue, we were asked, my group, 
the Advancement Project, was asked by the City of Los Angeles 
and its ad hoc committee at the city council level to tell the 
region why L.A. was stuck on stupid when it came to reducing 
gangs, reducing gang membership, reducing the hold of gang 
culture on L.A.
    What we did was we pulled together 35 experts. Anytime you 
put lawyers and 35 experts together, you are going to get a big 
report. The report weighed 12.5 pounds and was 1,000 pages 
long. The only good thing about that was that it was too big to 
ignore, because we had ignored every other report.
    Thirty-five experts, including law enforcement, and you 
want to know what they said? They said, you can't litigate your 
way out of it, looking at me because I had filed I don't know 
how many lawsuits. Commander Green, how many times did I sue 
you? [Laughter.]
    I sued. I woke up every day trying to figure out a new way 
to sue in class actions, not just regular, and I was at war 
with LAPD and the sheriffs, trying to get constitutional 
policing. They were at war with the gangs. We were all fighting 
each other, and the kids were dying.
    So we got unstuck off of stupid, and we said, you want to 
know something? The civil rights litigators don't have the 
answer, and shock and awe policing suppression doesn't have the 
answer either. Both may be necessary, but we are not getting 
the job done. The kids are not safer.
    What we did is we wrote that report together, and as 
Sergeant McBride said, ``Connie, I don't even like you, but you 
want to know something? I'm going to join you on this report 
because when I retire, after 40 years of being on the Sheriff's 
Department, I just arrested the grandson of the man I first 
arrested when I got 2 weeks out of the Sheriff's Academy, and I 
arrested his dad 10 years ago. I have destroyed three 
generations of that family, and the next generation is going 
into the gangs.''
    So when we decided to take a look, a fresh lens on this 
problem, we came up with a comprehensive violence reduction 
focus and strategy. That is the strategy that Commander Green 
is talking about. Instead of suing each other, we now have each 
other on speed dial. We work all the time together. We have 
comprehensive prevention, comprehensive suppression, strategic 
suppression, re-entry, and wrap-around security for the kids.
    Look at the data. The data tell you the truth. While 
Chicago is going up by 33 percent, L.A.'s gang crime has gone 
down another 20 percent. Summer Night Lights, where the GRYD 
Office works, with the GRYD Office, our Gang Reduction and 
Youth Development Office, which is in the mayor's office, where 
that works at Summer Night Lights, magic. Gang homicides 
plummet 57 percent. Nowhere in the country does that happen.
    Do you want to know why? It is because we are working 
together like a symphony. We are not just playing separate 
instruments in a corner. We are conducted by Deputy Mayor 
Guillermo Cespedes together, by the Chief of Police, and by the 
Mayor, and we all get in the boat and row together to keep kids 
safe. That is the comprehensive wrap-around.
    Yes, the threat is going up, but please don't have the 
Pavlovian response of shock and awe. We need strategic 
responses, and we have to understand that what we have been 
doing in the past isn't getting the job done. Thank you.
    [The prepared statement of Ms. Rice follows:]
    Prepared Statement of Constance L. Rice, Co-Director/Attorney, 
                          Advancement Project.
    I am a civil rights lawyer who for 30 years has been fighting for 
our poorest children to enjoy the basic right of safety. All children 
should, at minimum, be able to walk to and from school, play in a park 
and walk to the corner store without fear of getting shot or being 
accosted by thugs. In my view, the first of all civil rights is the 
right to safety and the first of all freedoms is freedom from violence. 
In short, without public safety there are no civil rights.
               the los angeles context for gang hot spots
    Since 1980, residents trapped in Los Angeles county's gang hot 
zones have suffered 7,000 gang murders, 50 police officer deaths, at 
least 16 gang intervention deaths and an estimated 100,000 people shot. 
L.A.'s violent gang crime costs California taxpayers more than $2 
billion every year, with each gang murder costing $1 million dollars in 
direct costs and up to $16 million in indirect costs. After 35 years of 
fighting a $25 billion ``war on gangs,'' the County of Los Angeles 
found itself in the year 2005 with six times as many gangs, twice as 
many gang members, a gang violence epidemic, high gang homicide rates, 
and a legacy of hostility between police and residents of high crime 
zones.
    By 2005, despite sustained declines in non-gang crime, L.A.'s gang 
crime and its youth gang homicide rate stayed stuck at epidemic levels. 
The 35 year ``war on gangs'' had left Los Angeles county as the violent 
gang capital of the nation with over 100,000 gang members and 1,000 
gangs, half of which operated in the city of Los Angeles. A former 
World Health Organization epidemiologist who studies violence as a 
disease, concluded that, in the city's gang hot spots, ``Los Angeles is 
to violence what Bangladesh is to diarrhea, which means the crisis is 
at a dire level requiring a massive response.'' Worse, a criminologist 
for the California Attorney General's office concluded that the Petri 
dishes of L.A.'s high crime neighborhoods had spawned ``a violent gang 
culture unlike any other. . . .''--and L.A. was exporting it across the 
country.
    By 2012, however, the city of Los Angeles had a much better story 
to tell. The city had achieved significant drops in gang crime, the 
first declines in gang homicides and the end of the youth gang homicide 
epidemic that had raged since 1985. And by summer of 2012, as Chicago 
posted a 33% increase in gang homicides and Boston and Philadelphia 
struggled with increasing violence, L.A.'s gang homicides continued to 
drop, prevention programs had demonstrated a 35% reduction in gang 
affiliation, and in the city's Summer Night Lights parks, gang 
homicides plummeted an astonishing 57%.
    What changed?
 the report: a call to action: the case for comprehensive solutions to 
                  los angeles' gang violence epidemic
    In 2007 the Los Angeles City Council's Ad Hoc Committee on Gang 
Violence and Youth Development commissioned the Advancement Project to 
explain why the city's gang reduction efforts had reduced neither gangs 
nor gang violence. In January 2007, we issued our one thousand page 
report, A Call to Action: The Case for A Comprehensive Solution to Los 
Angeles' Gang Violence Epidemic. The report, conducted with over thirty 
experts in areas ranging from the epidemiology of violence and gang 
anthropology to mental health and law enforcement, explained that the 
``war on gangs'' was the wrong paradigm to reduce gang violence, 
culture and crime. While police suppression would always play a prime 
role, suppression alone could not dent L.A.'s gang epidemic, and 
untargeted saturation-suppression (``war'') had increased street gang 
cohesion and coincided with gang expansion and alienation of residents 
in gang neighborhoods.
    One expert analogized solely arresting gang members to swatting 
mosquitoes in order to fight a malaria epidemic. By arresting one gang 
member at a time, L.A. was swatting mosquitoes--and doing too little to 
blunt the spread of the gang mentality, ideology or culture.
    In short, the report concluded that Los Angeles could not arrest 
its way out of an entrenched gang culture. L.A. police would always 
need to remove violent criminals, but by stopping there, we were 
leaving over 850,000 innocent kids in Los Angeles County gang hot 
spots, 90% of whom have been exposed to felony violence, and a third of 
whom suffer from civil war levels of post traumatic stress. The report 
recommended to the City that it focus its resources in gang hot zones 
and switch from ad hoc suppression to holistic collaboration aimed at 
fixing the root causes of the gang epidemic. Instead of ``war,'' the 
city needed data driven strategies that reduced youth attraction to 
gang life, prevented gang joining, and aligned law enforcement and 
other agencies with the comprehensive public health approach.
    Upon its release in January 2007, the Los Angeles Daily News hailed 
A Call to Action as ``A Marshall Plan for Gangs,'' and LAPD Chief 
Bratton later cited it as the catalyst ``. . . that changed how the 
city of Los Angeles deals with gangs.''
               the comprehensive violence reduction model
    The comprehensive violence reduction model requires a centrally 
directed, adequately funded, network-based and relationship-based 
strategy that forges cooperation and aligns missions across sectors, 
disciplines, agencies, institutions and individuals. Through the 
networks and coordinated programs, agencies, advocates, police, 
families, schools and faith based organizations jointly forge 
neighborhood-based and family-based strategies to reduce violence, keep 
kids safe, create alternatives to gangs and change norms. The 
comprehensive model's theory of change is that dislodging an entrenched 
epidemic of gang culture cannot be done by arresting one gang member at 
a time or rescuing one child at a time. It requires an ``all hands on 
deck'' collaboration that is centrally coordinated to carry out 
neighborhood strategies that bring help to families trapped in gang 
zones.
    Hallmarks of the city of Los Angeles' comprehensive ``wrap around'' 
approach are as follows:

    <bullet>  Mayoral/Executive leadership that strongly insists on 
focusing funding on gang hot zones; that is willing to run the office 
responsible for executing comprehensive strategies; that accepts the 
uncertainty inherent to the experimentation needed to find out what 
works; that insists on police department cooperation; and that accepts 
the high risks inherent to effective gang intervention. (In L.A., Mayor 
Antonio Villaraigosa accepted responsibility for a new office of Gang 
Reduction and Youth Development (GRYD), launched the only city-funded 
gang intervention academy, insisted on LAPD cooperation, and refused to 
cut GRYD funding during budget wars.)

    <bullet>  Law enforcement leadership that aggressively seeks to 
increase trust between police and communities. (In L.A., LAPD Chief 
William Bratton insisted on ``high road'' and ``public trust policing'' 
and current LAPD Chief Charlie Beck has created the first community 
policing unit that will promote officers based on how they helped 
families keep kids from being arrested.)

    <bullet>  Law enforcement leadership that is willing to pull back 
counterproductive and overly aggressive suppression; that supports and 
works closely with Mayor GRYD staff; that works in tandem with 
professional gang intervention. (In L.A., Chief Bratton, Los Angeles 
County Sheriff Lee Baca and LAPD Chief Charlie Beck strongly backed the 
Call to Action mandate to bolster suppression with comprehensive 
community strategies, enthusiastically support working with 
professional gang intervention, and continue to be key partners in 
carrying out the comprehensive strategy.)

    <bullet>  Establishment of a single accountability structure under 
the Mayor's GRYD Office that has sufficient political insulation to 
take risks, and sufficient clout to command cooperation from disparate 
departments and sectors. GRYD requires a creative, politically skilled 
director and non-bureaucratic staff who are mission-driven. (In L.A., 
the five-year-old Office of Gang Reduction and Youth Development 
operates out of the Mayor's office, is headed by Deputy Mayor Guillermo 
Cespedes and has achieved remarkable milestones in establishing L.A. 
city's comprehensive footprint--see attached data for GYRD Milestones) 
GRYD Zones are established only in high gang violence, high need areas 
to focus resources where the violence and need is greatest. Each of the 
12 GRYD zones receive city resources that support year-round prevention 
and intervention programs as well as have Summer Night Light parks 
located inside the zones.

    <bullet>  Data-driven operations and trial programs that synthesize 
the best research, examine results, use sensible evaluation and change 
course to pursue what works.

    <bullet>  GRYD Office success with the Summer Night Lights safe 
parks program has been key to building the political support necessary 
to weather the risks taken to reduce gang violence: (In L.A., crime 
reductions in GRYD zones outpaced reductions in comparable non-GRYD 
areas of the county and city).

    <bullet>  GRYD coordination of multiple agencies, advocates and 
neighborhood leaders, to carry out strategic suppression, prevention, 
intervention, re-entry, and community investment.

    <bullet>  Family-based prevention strategies. GRYD is pioneering a 
family health and treatment regimen designed to reduce gang risk 
factors. Outside evaluators have already documented decreases in 
participants' antisocial behavior including a 47.3% reduction in gang 
fights and 48% decrease in gang activity.

    <bullet>  Professional gang intervention based on the social 
networking model of intervention and has the backing of law enforcement 
as an independent resource in a comprehensive violence reduction 
strategy

    <bullet>  Gang intervention training to enhance the professionalism 
of intervention workers, done in a city-funded intervention training 
academy: the LAVITA (Los Angeles Violence Intervention Training 
Academy) Academy is conducted for GRYD by the Advancement Project's 
Urban Peace Academy.

    <bullet>  Philanthropic, business, faith-based and academic support 
for the Summer Night Lights safe parks program, a successful public-
private partnership with one half of the $6 million annual budget being 
contributed by philanthropy.

    <bullet>  Relationship-based networks that enact congruent programs 
driven by the same theory of change.

    <bullet>  Sustainable community policing that is backed by 
departmental leadership and by incentive structures that reward problem 
solving policing. LAPD, in agreement with the Housing Authority of City 
of Los Angeles (HACLA) established its first unit of problem solving 
police officers through its Community Safety Partnership (CSP). These 
45 officers are deployed to four housing developments for five years, 
and will be rewarded for developing relationships and innovative 
community driven solutions to achieve safety. For the first time LAPD 
officers will be promoted for demonstrating how they avoided arresting 
a kid. In the first six months of deploying these officers, their areas 
of Watts saw a 43% drop in crime and a notable retreat of gang 
activity.
       the office of gang reduction and youth development (gryd)
    The GRYD Office, headed by Deputy Mayor Guillermo Cespedes, was 
established five years ago in response to the Call to Action 
recommendation to create a single accountability structure responsible 
for implementing and coordinating comprehensive violence reduction, 
intervention and prevention. It has approximately 40 staff who carry 
out the family treatment prevention program, oversee street gang 
intervention, develop re-entry strategies, make Summer Night Lights 
happen and engage law enforcement. Deputy Mayor Cespedes would say that 
GRYD is just getting starting, but the office has documented the 
following milestones:

GRYD Prevention
    In 2011, outside evaluator Urban Institute documented for the 10 to 
14 year old program participants:

    <bullet> 23% decrease in antisocial behavior

    <bullet> 29% decrease in lack of parental supervision

    <bullet> 35% decrease in critical life events

    <bullet> 47.3% decrease in gang fights

    <bullet> 35% decrease in hanging out with gang members

    <bullet> 48% decrease in participation in gang activity

GRYD Summer Night Lights Safe Parks Program
    The Summer Night Lights (SNL) program keeps parks in gang zones 
open at night, offering neighborhood families food, sports, music, 
games and a chance for neighborhoods to keep kids safe. SNL is the most 
publicly recognized activity of the GRYD office and has been noted as a 
remarkable success. Between 2008 and 2011 the SNL program had produced 
significantly higher reductions in crime even compared to comparable 
county parks with similar programs:

    <bullet>  55% reduction in shots fired

    <bullet>  43% reduction in aggravated assaults

    <bullet>  Served over a million meals

    <bullet>  Served 1.8 million visitors

    <bullet>  Created over 3,000 job

    <bullet>  11 times higher drop in gang crime compared to county 
park programs
                               conclusion
    Aggressive law enforcement to counter gang crime will always be 
necessary, but entrenched gang violence and culture cannot be addressed 
by suppression alone. In areas like Los Angeles that have epidemic 
levels of gang crime and violence, it is also necessary to launch 
comprehensive, wrap-around strategies described in this presentation.
    LA still wrestles with serious gang threats in its gang hot spots, 
but 2012 also marks the ninth year of significant citywide drops in 
non-gang crime, the fifth year of significant reductions in gang crime, 
and continued success in the Office Gang Reduction and Youth 
Development's prevention, intervention, re-entry and Summer Night 
Lights programs. Indeed, through this collaborative model, Los Angeles' 
current crime rates have declined to levels last seen in 1952. This 
progress, while partial, is clearly due to the city of L.A.'s decision 
to move away from a ``war on gangs'' and move to adopt the 
comprehensive violence reduction paradigm.
                               __________

    Mr. Sensenbrenner. Thank you, Ms. Rice.
    The Chair is going to defer his questions to the end and 
now recognizes the gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank all of you 
for being here. And we certainly appreciate your expertise and 
your looking at these issues.
    I think all of us agree that we need to work together. I 
mean, there is no question about that. We also agree that we 
need to have prevention programs, we need to work 
strategically. But I would like to just look at a few 
statistics.
    According to the statistics that I have, we now have about 
1.4 million active gang members in the country, and that is a 
rise of about 40 percent since 2009. Do any of you dispute 
those statistics, or do they seem fairly accurate to you in 
what we are doing?
    Sheriff, you mentioned the Somali gangs that you have. 
Where do most of those gang members come from? How do they get 
involved in the gangs?
    Mr. Stanek. Yes. Chairman Sensenbrenner and Congressman, 
generally many of the Somali citizens who live in my community, 
the 80,000 to 125,000, the vast majority of them were refugees 
who came to Minnesota through that resettlement agreement. But 
now you are reaching into the first generation, so many of 
these young people are now 10, 11, 12, 13, maybe even 14 years 
old. They are growing up in a culture in which they are finding 
that turning to gangs is, unfortunately, somewhat a way of life 
for them, very unfortunate.
    And so we are working hard to try and find ways to reach 
them early on, early childhood family education type programs, 
intervention, educators, the faith community and others. But 
some came with that, but for the most part the young people who 
are now entering gangs, Mr. Congressman, are folks who have 
grown up here in the United States into these families.
    Mr. Forbes. How about do any of you have any exposure to 
MS-13 in your areas? Ms. Rice, do you have--Commander?
    Mr. Green. Yes, sir. In Los Angeles, we have a sampling 
component of MS-13.
    Mr. Forbes. Where are they recruiting most of their 
members? How do they get them?
    Mr. Green. MS-13, typically throughout the neighborhoods, 
and this is second, third generation. Some of it is built into 
the family. But MS-13 is very embedded in the prison system, 
and based on our current system within the prisons, they have 
the ability to communicate outside and continue to not only 
force recruitment but action from prison.
    Mr. Forbes. How are we going after their networks, you 
know, the leadership of the networks? Because the networks tend 
to run these gangs, and if we continue to just take people off 
the streets that are lower tier, we are not doing anything. 
They are going to replace them over and over again. What are 
your efforts at going after the networks, and how are you 
effectively taking those networks out?
    Mr. Green. In Los Angeles, it is strategy. It is mostly our 
task forces. Our goal of the leadership is to diagram out those 
gangs, target the leadership of the gangs and remove them. 
Unfortunately, there is a void that is filled almost 
immediately because it is very, very lucrative.
    So as you continue to have that financial incentive, each 
time we remove a top member of that gang, the void is filled 
almost immediately, and we have to continue our efforts to 
eradicate it through individuals.
    Mr. Forbes. Ms. Rice?
    Ms. Rice. Thank you. I think you have raised a very, very 
important point. MS is one of the gangs, as Commander Green 
indicates, that is probably one of the most violent, and 
probably most linked in California with the large drug 
distribution networks which are run from our prisons. That is 
the main vector for the messages that go out to control the 
drug trade, in California anyway.
    If we could get ahold and control of our prisons and break 
it up, MS is one of the gangs that has linked up with the 
prison gangs, and the prison gang has linked up with the 
cartels. But I don't want us to overreact to that. We need a 
very focused, hierarchical strategy, because with organized, 
international, transnational threats, you have to go for the 
hierarchy. If you do that with street gangs, however, you end 
up causing a metastasis of the culture in the mindset at the 
local level.
    So you are absolutely right that there needs to be a 
different strategy for hierarchical, organized, international 
crime cartel type of activity, which is all about business and 
money, and the prison nexus there. I don't understand what we 
are doing with our prisons as gang headquarters for national 
cartel activity. In California, that is the new threat, that 
the cartels are now merged with some prison gang drug 
distribution, and they are now taking over some--just a few--
less than 1 percent of the street gangs.
    I don't want us to go all shock and awe all over the place. 
I would rather see us very strategically and surgically go 
after this threat, but not in a way that destroys the 
relationships and the proactive prevention and intervention and 
alternating----
    Mr. Forbes. Ms. Rice, my time is up.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Illinois, Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. I would like to thank 
all our panelists, not just for being here but for the work you 
do in your own homes and communities to make us all safer.
    Mr. King, thank you for what you do in Chicago. You, too, 
know the statistics I am all too familiar with. There are 
others. We had six people shot in 15 minutes two nights ago in 
Chicago. In 2010, we had 700 kids get shot in 1 year. I was 
fortunate. I grew up in a neighborhood where if you were in 
grade school, your fears were bad grades or getting braces or 
not getting a date to the prom or something like that. The 
number-one fear for kids in Chicago is getting shot. So it is 
something we have to work on.
    Mr. King, you are familiar with my predecessor, who is now 
the mayor of the City of Chicago. He recently has brought on 
CeaseFire, the group, for over $1 million to try to intervene. 
I assume you are familiar with their work?
    Mr. King. Yes.
    Mr. Quigley. What is your assessment of a group like this 
attempting to intervene in the hostilities that take place and 
stop them before they happen?
    Mr. King. So I think that groups like CeaseFire are 
integral parts of this problem. You mentioned that the number-
one fear for inner-city youth is getting shot. I would also say 
that for many people, many young people, getting shot is a 
badge of honor. And so while no one wants to get shot, in 
certain communities, including those in Chicago, there are some 
young people who believe that by getting shot, they have 
somehow proven something to other gang members, to their 
families, to their communities. And so they aspire to engage in 
violence for that reason, so they can get that badge of honor.
    Groups like CeaseFire and other programs in our city and 
schools have a unique opportunity to engage with young people 
so that they understand not only that they should not be 
engaging in violence but that they should in no way view 
violence as something to be celebrated or something to be 
aspired to. You should not look at violence or a bullet wound 
as a badge of honor.
    So I am a huge fan and supporter of CeaseFire. One of our 
campuses is located in the Englewood community. CeaseFire has a 
very strong presence in the Englewood community, and I think 
they make a real positive difference.
    Mr. Quigley. Thank you.
    Ms. Rice, you are familiar with such groups that attempt to 
intervene. Could you comment on how you have seen them work in 
your community?
    Ms. Rice. Gang intervention for street gang intervention is 
a critical part of any comprehensive strategy where you have a 
level of entrenchment and gang saturation that requires this 
kind of activity.
    I don't like having to work with former gang members to 
help reduce the violence. That is annoying, and it is not 
something that law enforcement likes to do. But Commander Green 
and Chief Beck and Chief Bratton and we have learned that when 
you have 100,000 gang members and you have 7 percent of them 
that are violent at an extraordinary level, your city has an 
epidemic. When you have an epidemic, you can't hand out fly 
swatters to fight a malaria epidemic, and you can't just arrest 
one at a time. You have to use things like gang intervention. 
It has to be professionalized.
    L.A. City, under Mayor Villaraigosa, has a gang academy. It 
is the La Vida Academy. Can you believe we have an academy for 
gang intervention workers to train them to work with police to 
protect funeral homes, to protect emergency rooms? We don't 
have emergency docs getting shot up anymore because gang 
intervention intercedes. They stop the rumors, and as Chief 
Beck says, their job is to stop the retaliation shooting, the 
next shooting.
    So I caution people. If you are going to use gang 
intervention, it has to be done carefully. It has to be done 
with an enormously high level of skill.
    Mr. Quigley. Thank you.
    Commander.
    Mr. Green. My follow-up comment to that is to be effective, 
it has to work hand in hand with law enforcement. They have to 
coordinate, because it is a preventive strategy. We have a 
candlelight vigil, and it would get shot up by another gang 
looking for more victims. Now with intervention, they will call 
us and ask for us to put a Black and White out.
    Historically, our only strategy was that after a funeral, 
when emotions are already high, we put gang cops into that 
neighborhood to make sure we didn't have retaliation shootings, 
and that only enflamed it more. Now I can have intervention pay 
attention to that and call me if it starts to spin up. As you 
build that level of interaction between law enforcement and 
intervention, it is extraordinarily successful.
    Mr. Quigley. Thank you.
    Sheriff, in the brief time we have.
    Mr. Stanek. Yes, thank you, sir. I think that intervention 
also goes along with analytics. These folks talked about when 
you have a shooting, you can predict in some cases, 
particularly with gangs, where the next shooting is going to 
happen, I don't mean right down to the individual, but most of 
the time law enforcement understands what is the underlying 
conflict, whether it is something ongoing, whether it is turf, 
narcotics, something else. But using analytics and 
intelligence-led policing, we have a pretty good idea where the 
next shooting is going to occur, and it is our job to work with 
our community outreach workers or whatever resources we have 
available on the prevention side.
    Mr. Quigley. Thank you. I want to thank my mayor for his 
efforts as well.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    My first question is for Commander Green and Sheriff 
Stanek. I understand that the majority of the investigations 
and prosecutions would be at the state level. For those that 
may find their way into the Federal system, are there specific 
statutory changes you would recommend, evidentiary changes that 
you would recommend, or sentencing enhancements or sentencing 
guideline changes that you would recommend for us?
    Mr. Stanek. Thank you, Mr. Chairman and Members. Well, from 
my perspective, it would be sentencing enhancements for felons 
with guns and a very concerted approach by the U.S. Attorneys 
to prosecute felons with firearms, those that are prohibited.
    You know, every few years we see a new tactic, new 
approach, a new round of whether or not they are going to work 
with local law enforcement or not, or where they set that bar. 
But we need the bar set fairly low. Felons in possession of a 
firearm, those who are prohibited, those are the ones we need 
prosecuted on the Federal level. The Federal sentencing side 
versus our individual states is a big hammer to hold over their 
heads and helps us combat gangs and the violence on the streets 
in our communities.
    Mr. Gowdy. Commander, before you answer, let me ask this, 
because it has been a while since I was in the system. Way back 
when, anyone under the age of 18 was considered a minor by the 
Federal criminal justice system, and it required the specific 
approval of the Attorney General to wave them up and prosecute 
them as an adult. Is that still the case? Have you tried to 
wave 16 and 17-year-olds up?
    Interestingly enough, they are considered adults in most 
state systems, but they are considered minors in the Federal 
system.
    Mr. Stanek. Mr. Chair and Members, I believe that is still 
the case, and that is one of the things that maybe Congress 
could help us with in local law enforcement efforts.
    Mr. Gowdy. So sentencing enhancements for non-22G cases or 
felon and possession cases, and getting ATF, which would be the 
agency of jurisdiction, to focus on garden-variety felon and 
possession cases, as opposed to what other priorities they may 
feel like they have.
    Mr. Stanek. Mr. Chair and Members, I would concur with 
that.
    Mr. Gowdy. All right.
    Snitching. I had an African American chief of police in my 
home city, and the biggest frustration he had was the 
unwillingness of some folks to cooperate with law enforcement. 
How do we get around that, and how do you also brush back 
allegations of racial profiling when the gangs, in and of 
themselves, are fairly homogenous and might lend themselves to 
certain kind of profiling? I am not suggesting racial, but we 
are kidding ourselves if we don't think some of these gangs are 
homogenous.
    Mr. Green. I will go back to the first part of that 
question regarding what you call snitchers. I think it is 
important to have the funding there to relocate witnesses so 
that they feel comfortable if they testify that they won't be 
killed. That is a reality in some of these neighborhoods, that 
the people won't testify because they are afraid for their 
life.
    We come back to talking about gun and gun enhancements. In 
a lot of these neighborhoods, young men feel that they have to 
be armed to survive. They would much rather get caught with a 
gun and prosecuted than they would get caught without a gun and 
get killed. So until that comfort zone is changed, that won't 
change.
    The reality is we have to target behavior and violence. No 
matter what community it is, it is about targeting the violent 
behavior. So it doesn't matter whether it is White, Hispanic, 
Black. It is about the violence. If you go back to the data, as 
you look at that data and you strategically enforce, you have 
to target the violent individuals and their actions to be 
successful.
    Mr. Gowdy. Mr. King, my final question would be to you with 
respect to schools. What are they doing that is good, that is 
right, that is helpful? You have the whole aspect of educable 
neglect where parents are--in South Carolina, we experimented 
with actually holding the parents accountable when their kids 
don't go to school, which may be a novel concept in some other 
parts of the country, but it made sense to us.
    So what works and what doesn't work from your perspective?
    Mr. King. So one of the things that we have been hearing a 
lot during this testimony have been words like ``comprehensive 
wrap-around'' and ``strategic approaches.'' I think the same 
words apply inside schools, and if schools take a comprehensive 
approach toward the education of the child, and by that I mean 
not just reading, writing and arithmetic, it also means the 
social and emotional development of the child. You mentioned 
the issue of snitching and the perception that if you are a 
witness to a crime, you should not say anything. Either you 
will be retaliated against or you will be perceived negatively.
    Well, an opportunity that schools have is to actually 
educate young people out of that mind of thinking and educate 
them to understand that they have a responsibility not just to 
themselves but to their communities, and part of that 
responsibility is bearing witness to what is going on and 
making sure that they are taking the steps necessary to keep 
themselves and others safe.
    So I believe that schools that engage in those types of 
practices, focusing on the social and emotional development of 
children, as well as the education of their intellects, I think 
are the schools that are going in the right direction.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from California, Ms. Chu.
    Ms. Chu. Well, as a Congress member from Los Angeles, I am 
so proud to be here with two outstanding witnesses from Los 
Angeles who have done such great work on this issue, Commander 
Green from the LAPD, and Connie Rice, somebody that I have 
known for many, many years in Los Angeles. In fact, she is an 
icon in the Los Angeles area for doing such outstanding work on 
so many different issues. Welcome to both of you.
    Commander Green, it is always a pleasure to have someone 
from the district who is sharing information on the positive 
things that are occurring back in the community. With that 
said, in your testimony you shared that Los Angeles crime is 
experiencing the lowest crime rate it has seen since 1959. That 
is a remarkable feat for such a large urban city.
    The trend also includes a reduction in gang crime. To what 
do you credit this decrease?
    Mr. Green. There are a number of different things, 
Congressman, Congresswoman, that attribute to the success. It 
is a cocktail of suppression, intervention, but it is 
partnership. It is partnership with our city family, with our 
Federal partners, to actually go out and do something other 
than what we have done before with suppression.
    If we don't get in and build relationships in the 
community, effective relationships in all parts of our 
community, the police are seen as the antagonist, and with that 
relationship we can't move forward.
    Both the police department and the community want the same 
thing. They don't want the violence predominantly. So we need 
to get in, and I talked about the community safety partnership 
earlier in the housing developments. For years, it has been 
antagonistic. Seven months' worth of work in those developments 
with 10 cops doing nothing but community work and not 
suppression, we have seen dramatic reductions in shootings and 
homicides because we are building a community. We are taking on 
the root causes. Kids can get to school safely. They don't have 
to worry about getting killed walking to and from school. Cops 
are mentoring people.
    A lot of people say it is not law enforcement's job to be 
involved in all that. But if law enforcement isn't, we don't 
have the opportunity to build those critical relationships and 
the role model that we need to get information from the 
community to respond to it so we can make it better.
    So it is not one thing. But the Federal and the local 
partnerships, it is more of a task force response. Intelligence 
gathering, technology, all those things have helped 
dramatically.
    Ms. Chu. Ms. Rice, DOJ has several grant programs that 
provide funding to state and communities to combat youth gangs, 
gang-related violence, and juvenile delinquency. Are these 
grant programs sufficiently flexible in their targeted purpose 
areas to allow funding to be used to combat the evolving nature 
of gangs? If not, what are the shortcomings, and would these 
programs be appropriate to fund initiatives that can confront 
all the street gangs and transnational criminal gangs? If L.A. 
is showing such sustained declines in gang violence, shouldn't 
some Federal funding go to funding a strategy this effective?
    Ms. Rice. Yes. The comprehensive strategy is something the 
DOJ understands. But there are very few places that are getting 
a comprehensive footprint. It is hard to put this stuff 
together. It is hard to make agencies work together, to make 
people who are used to suing one another work together. It is 
not easy stuff. But what we are saying from Los Angeles is that 
that is what has made the difference. We all got in the boat 
and rowed. We decided to become an orchestra, as opposed to 
disparate musicians, and we have a conductor, Guillermo 
Cespedes, and the mayor and the LAPD Chief Charlie Beck.
    So it is a quantum leap of improvement, and it is hard to 
do, and it goes against all of the political DNA that we have. 
We have these Darwinian competitive funding strategies. It is 
inadequate levels of funding, and it is not strategic enough.
    So I think that the Federal dollars could go much further 
if they insisted on, where there is a high enough level to 
warrant it, this comprehensive wrap-around approach, as opposed 
to funding just--now, we have to fund the Thousand Points of 
Light, too. We have to fund the individual service-givers. We 
have to fund the individual schools. Those are very, very 
critical. It is not either/or. You have got to do both/and.
    I am not sure that the Federal level gets what we are 
talking about. It hasn't been seen anywhere. You have seen 
intervention interruption. You have seen wonderful schools. You 
have seen disparate points of light. You have not seen the 
halogen torch of the comprehensive strategy yet. And in L.A., 
we just have a footprint. We haven't done the full wrap-around 
yet. We don't have the county agencies yet. We have to reform 
probation. I may have to do another lawsuit. We may be back in 
lawsuit territory there. But they have $24 billion of our 
money, and these kids are drowning in these institutions.
    So we have a long way to go in L.A. But what we are here to 
say is that war didn't get us but so far. We backed away from 
war on each other and war on gangs, and started doing war on 
the violence and the conditions that hurt these kids, and as a 
result, the crime has plummeted, the trust has gone up, and we 
are seeing whole new dynamics.
    What I would love for this Committee to do is to take the 
new threats, which are real, but take a step back and don't do 
the normal throw more money. Yes, law enforcement needs more 
resources, but mainly for cyber crime. We have enough laws. We 
have enough enhancements. We have enough folks going to prison. 
What we don't have is a strategy that is smart enough to start 
getting to the cultural mindset, norm change, behavior change 
that will end the cult of death that gets passed on with gang 
members. That is what we need to be after.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you. I thank the Chairman for calling 
this, and I appreciate the four panelists here today. I can 
sense your passion about this issue, and so I appreciate you 
being here today.
    I wasn't planning to ask you this, but I want to fill up on 
what you just said about more--if I heard correctly, Ms. Rice--
more money about cyber crime. Explain that to me.
    Ms. Rice. The new threats are fascinating to me. It is from 
the cartels. The cartels have been in L.A. for at least 20 
years, but now they're really setting up shop. So the 
transnational nature has expanded. But the--I'm sorry. What was 
the question?
    Mr. Chaffetz. About the cyber.
    Ms. Rice. Yes, cyberspace. I'm sorry. I'm 56 and I have no 
short-term memory.
    That has increased by 1,500 percent. The smart gangsters 
are no longer hanging out on the corners. Those are the 
dummies, okay? The smart guys have gone now--they are online, 
and the new victim class is the middle class. They are going 
after our bank accounts, okay? So the smart gangsters, they are 
all in cyberspace now, and they are scary smart, all right? 
They are probably not going to get caught now.
    It is no longer about being on the corner slinging dope or 
threatening people. They are not into that anymore. So this is 
morphing into the more organized crime area where you are 
really after money. You are not about identity and turf, and we 
have to make sure that our strategies match the ecology of the 
gang and the psychology of the gang.
    So law enforcement needs money to get really smart, geeky 
guys, like the Big Bang Theory guys, into law enforcement, 
okay? I love that show. I just discovered it. I am so slow, I 
didn't even know it was on.
    But bottom line, they have got to be super smart. We have 
to get those kinds of brains into law enforcement. That is 
going to take a lot of money. They don't even have the right 
kinds of laptops. We need the technology reimbursed.
    I am not about taking money from law enforcement. I am 
about boosting the prevention and intervention and the wrap-
around strategies at the same time you fund them working 
together.
    Mr. Chaffetz. Okay. Thank you. I appreciate that. I think 
in many ways you are right, that those are major concerns.
    In the few minutes that I have left, maybe perhaps starting 
with the Commander, I want to talk about the prison aspect of 
this because I worry that what is supposed to conceptually be 
the Department of Corrections really ends up being more of a 
breeding ground and a training ground to take somebody who has 
maybe been a bad actor, and instead of putting them in the 
right direction, the rate of recidivism and other things goes 
up, and they come out with more contacts, more information, 
more knowledge, and become more dangerous.
    I mean, is that just a fallacy? Is that just a perception 
that we get on television, or is that the reality of what you 
are seeing on the streets?
    Mr. Green. That is the reality of what we see on the 
streets, sir. You send an individual that is a poor criminal 
into the criminal justice system, he comes out a very good 
criminal.
    Mr. Chaffetz. So what do we do about that?
    Mr. Green. One of the things we have to do is, typically 
within the first 24, 48, 72 hours, those first couple of weeks 
are critical when they get out to stop them from going back to 
the same pattern that they have had historically when they are 
on the street. They start hanging out with the same folks who 
start using the same substances that they did before. Before 
you know it, they have offended and they are back in custody, 
and that is why we have the recidivism rate that we do.
    We look at the comprehensive strategy of preparing them for 
life on the street, it has to be what tools to avoid that. We 
have talked about it. We have started looking at reentry. We 
have toyed with it, but we haven't put enough effort into 
reentry, especially in the day we live in now in California. 
Lots of folks coming back out, and unless we are able to give 
them those tools to survive, they are going to go right back 
into the system.
    Mr. Chaffetz. Sheriff?
    Mr. Stanek. Mr. Chair and Members, I think it is a great 
question, and I concur with the Commander about reentry. Many 
of the folks who come out of our prisons--and I come from 
Minnesota. We have one of the lowest incarceration rates, 
highest probation rates anywhere in the country. But reentry is 
what is important to us.
    We have to give these folks basic job skills, housing, keep 
them out of that life of crime, help turn them around. It 
starts when they are in prison through some of the programs, 
but really when they get out, that support network to help them 
succeed, because we all know that the vast majority of the 
folks who go to prison are coming back up.
    Mr. King. If I could just add something, I think it should 
not come as a surprise to any of us that someone who goes to 
prison because they didn't feel they had any opportunity or any 
options, we shouldn't be surprised that when they leave prison 
they don't feel like they have any options and opportunities.
    So it is critical that we do education on both ends, that 
we educate before to try to keep people from going into prison, 
but then if they do go to prison, we have to make sure we are 
educating them when they come out, as has been said, but also 
that we are making sure that as a society we are providing 
opportunities as opposed to stigma for folks who come out of 
prison. Otherwise, they will have no choice but to go back to 
the same ways that got them in prison in the first place.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you. It seems to me that all across the 
Nation, there is a stigma in the urban areas in terms of being 
Black and being a male, and that leads to a disproportionate 
share of our prison system, both state and Federal, being 
represented by that particular demographic, Black males, young 
Black males in particular.
    But I refuse to believe that there are not other criminal 
gangs who have a different hue than the Latino or the African 
American street gangs. Gangs are doing other things, like 
trafficking in drugs in the suburbs, in the rural areas. There 
even are prison gangs, such as the Aryan Brotherhood or the 
Nazi Lowriders, and even a gang like the Mafia. I know we don't 
call them a gang, but those kinds of organizations may be a 
little more difficult to investigate and bring charges against 
than just a street-level group of young people calling 
themselves the Fabulous 25 or some group like that.
    It is easy to get those street-level crack dealers and lock 
them up. Sentencing guidelines, send them away for a long time, 
it is easy to do that. We have assault weapons out there. Have 
you seen an increase in the number of assault weapons on the 
streets, Commander Green and Sheriff Stanek?
    Mr. Green. In Los Angeles, we have seen that increase for 
the last 20 years. We have had assault weapons on the street. 
It is not a new phenomenon. It stayed, and the consistency of 
those numbers has never slowed down.
    Mr. Stanek. Yes, Mr. Chair and Members. You are absolutely 
correct, Congressman. We have seen a dramatic increase in the 
amount of assault weapons, even some automatic weapons. You 
have seen law enforcement go from 38-caliber revolvers to semi-
automatic handguns. We have transitioned from 12-gauge shotguns 
to semi-automatic rifles, just to match the fire power.
    Mr. Johnson. Okay. Thank you. Now, the people trafficking 
in those weapons are not street-level drug dealers, but they do 
end up with some of these weapons. There is no doubt about 
that. What kind of focus do we have on where those guns are 
coming from, who is trafficking in those guns? Could it be the 
folks at the unlicensed gun dealers at the gun shows that make 
their way around the country? Are the unlicensed gun-show 
dealers criminals themselves? What kind of record do they have? 
Who organizes all of these gun shows going across the country, 
and what happens to the multitude of weapons that end up on the 
streets of America, in the inner cities? What happens with 
those groups? We don't see a lot or we don't hear anything 
about the prosecution of Aryan Nation gang members for selling 
drugs on the outside of prison, some kind of a network.
    Can you talk to us about the street-based, racist gangs? 
Are they gangs? Are they considered gangs, and is the Mafia 
considered a gang?
    Mr. Green. Sure. When it comes to street-based enforcement, 
we target the most violent areas. As the Sheriff talked about 
earlier, we use data, and that pushes our enforcement so we can 
try to stop the violence.
    As with narcotics, with guns, we partner with the ATF, and 
we have continued partnerships with the Federal entities. And 
just as we do with narcotics, we try to work narcotics 
backwards from that street dealer as with guns. We get guns off 
suspects in the street. We get them in homicide investigations. 
We roll back in partnership to try to find out where that gun 
came from. And then as they can, we work with our Federal 
partner for Federal prosecutions if you get violations of that 
Federal law.
    Mr. Sensenbrenner. The gentleman's time has expired.
    Before recognizing the gentlewoman from Florida, Mrs. 
Adams, the Chair will state that if any other Members come in 
before Ms. Adams concludes her questioning, they will be 
recognized. But if they come in once I have recognized Mr. 
Scott and then myself for wrapping up the questions, they won't 
be recognized.
    The gentlewoman from Florida is recognized for 5 minutes.
    Mrs. Adams. Thank you, Mr. Chair, and I appreciate the 
witnesses here. I am going to come at it a little bit different 
since I spent over 17 years in law enforcement and have 
investigated a lot of these crimes.
    I heard my colleague talking about basically racial-based 
gangs. There are those, but there are mostly gangs that have 
become the family, so to speak, ``families'' of these children 
or these young adults. Would any of you disagree with that 
fact?
    So with that, what we have seen is, with the breakdown of 
the family unit over the years, a lot of these young adults and 
young children have come to be involved in gangs based on the 
family-style unit that they present. And even though I don't 
agree with the enforcer that they have in the units or those 
type of things, I think they are very dangerous for our 
communities and for our families.
    I have listened to a lot of this, and I am amazed to hear 
and see that we have such international gangs such as the 
Somali gangs, Sheriff, that you have, that you are dealing with 
in your county. Can you explain to me a little bit about that? 
How are the Somali gangs different than other gangs you have 
seen come into your area? I mean, I have seen the multinational 
gangs come into our area in Florida, so I was just kind of 
curious.
    Mr. Stanek. Sure. Mr. Chair and Members, with Somali gangs, 
as I had indicated earlier, a different way of policing, much 
more culture-centric, different techniques and tactics than 
maybe some of the other traditional gangs we have talked about 
here this morning, all the way from witness tampering to--you 
know, they are not so much narcotics-based, like some street 
gangs that are turf oriented, but rather they do so for other 
reasons, some cultural, some specific, but it requires a 
different law enforcement response.
    Mrs. Adams. And isn't it true that gang members don't 
normally go to gun shops or gun shows to purchase guns? They 
are usually buying them on the black market or through avenues 
other than anything that would be otherwise seen as legal?
    Mr. Stanek. Yes. Mr. Chair and Members, I think you are 
right on. What we see in our communities across the United 
States from the local law enforcement perspective is primarily 
through straw purchases. Someone who is legally able to 
purchase a firearm will go in, make that purchase, and then 
sell it to someone else. Either they had that intent when they 
walked into that gun store, or bought from an FFL, a Federal 
Firearms Licensed dealer, or they got that idea afterwards.
    But each of these guns that we recover on the street, 
working with our ATF partners in these task forces, we trace 
those guns back to the source, and that is what gives us our 
information and an indication of where these guns actually come 
from and what we are seeing today.
    Mrs. Adams. And the source could also be from burglaries, 
thefts, things of that nature?
    Mr. Stanek. Yes. Mr. Chair and Members, as I indicated 
earlier, we see a lot of it. I indicated there was a gun store 
burglary in Minnetonka, Minnesota. I think 57 or 58 firearms 
were taken. Twenty-seven of those 58 have not been recovered. 
But for those other 30-plus, we found them at shootings, 
robberies, homicides. So the purpose of that burglary was to 
put those guns in the hands of criminals, primarily the local 
street gangs.
    Mrs. Adams. And, Ms. Rice, I was looking at something that 
you had written on pages 147 and 148 of your book. You tell a 
very disturbing story about a child soldier who did the killing 
for his gang and merely would have to go to juvenile. It says, 
``to JV.'' I have seen that also in my community where I was a 
law enforcement officer in central Florida, where sometimes the 
youngest, because of their age in the gang, would be given the 
most violent acts so that they would only be given a very small 
sentence based on their age, not like someone in an older age 
group would get. Would you like to elaborate on that?
    Ms. Rice. Yes, thank you. I absolutely agree with you that 
the exploitation of the youngest ones is an outrage, and it is 
our failure. What are we doing letting gangs take ahold of 
little kids and turn them into assassins? When I met my first 
child assassin, I was appalled at myself first. Where was I 
when they turned this kid? How do we allow children to fall 
into the hands of these fiends? And that started my journey.
    So for me, we have to protect children. If we can't keep 
kids safe enough to go to school, what are we doing? We are not 
running a democracy here. If we allow this to happen in our 
backyards, we are failing, together we are failing as adults.
    So I am glad that you brought that up. This, for me, is 
about the children. The poorest rural children are now 
suffering in a methamphetamine economy that we are not 
addressing, and it isn't going to help to just lock up all of 
their parents. We have got to look at that ecosystem with an 
eye toward protecting these children and dealing with the root 
causes. You give these families an alternative to cooking meth, 
they are not going to be doing this stuff.
    So I am really begging the Committee to take a very hard 
look at the harder work of doing these wrap-around ecosystem 
strategies that get at the root causes. That is how you protect 
kids. You don't let these neighborhoods and these hot spots 
sink to a level where we can actually find kids being taken out 
of their families, given a gun and instructed in how to murder. 
That is what I found in Los Angeles. That is what I said in my 
book was unacceptable. You don't let children die like this, 
and we have no excuse for it in this country.
    But if we keep just focusing on locking people up, we are 
not going to get to the wrap-around strategies.
    Mrs. Adams. Thank you.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Virginia, Mr. Scott, the Ranking Member 
of the Subcommittee.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Rice, we heard about the desirability of trying more 
juveniles as adults. Don't all the studies on trying more 
juveniles as adults conclude that if you pursue that policy, 
the crime rate will increase?
    Ms. Rice. I don't know whether the crime rate is going to 
increase. What I do know is that our level of failure is going 
to increase. There are some juveniles that should be 
prosecuted----
    Mr. Scott. If you increase the number. Not if you try any 
juveniles, but if you increase the number of juveniles being 
tried, the crime rate will go up? Not just trying any juvenile. 
Some juveniles, like you said, but they are all being tried as 
adults now. If you increase the number, you are talking about 
the marginal children that the studies have shown the crime 
rate will go up because they will be treated in a situation 
where they can either be locked up or let go, no services that 
can be provided in the juvenile facilities.
    Ms. Rice. Congressman, you bring up a very important point 
because the kids that I find, the vast majority of them, if you 
put them into prison, it is like graduate school. It is like 
college for crime.
    Mr. Scott. That is what happens when you try more juveniles 
as adults.
    Ms. Rice. That is right. When they get out and we haven't 
reformed them, we haven't rehabilitated them.
    Mr. Scott. One of the things you talked about is investing 
in prevention, early intervention, wrap-around services, and 
obviously that costs money. That is what we are trying to do 
with the Youth Promise Act. Can you give me an idea of how much 
Los Angeles County spends right now on incarceration?
    Ms. Rice. On incarceration?
    Mr. Scott. Right. Is it fair to say that it is billions? I 
was told that $11 billion is the state budget for corrections. 
Forty percent of the inmates were from Los Angeles.
    Ms. Rice. It is definitely billions statewide. It is 
definitely billions statewide.
    Mr. Scott. But those from Los Angeles that go into the 
state system, plus Sheriff Baca's budget, has got to be at 
least half-a-billion dollars, or more counting juveniles.
    The mayor's Gang Reduction Youth Development program, do I 
understand that costs $168 million?
    Ms. Rice. I wish that much was spent on it, but it is more 
like--my understanding is that it is closer to--it is below 
$100 million.
    Mr. Scott. But compared to the corrections budget, it is 
peanuts.
    Ms. Rice. It is tiny.
    Mr. Scott. Now, Boyle Heights, I understand there is a 44 
percent reduction in crime in Boyle Heights?
    Ms. Rice. That sounds right.
    Mr. Scott. Do you know whether or not the teen pregnancy 
rate also went down? Because usually when you have a good crime 
prevention program, you prevent crime, dropouts, drug abuse, 
and teen pregnancy.
    Ms. Rice. Teen pregnancy in Los Angeles County has been 
going down for the last 5 years.
    Mr. Scott. You mentioned a difference between MS-13 and 
other street gangs. Why should they be treated different, 
differently?
    Ms. Rice. Because you want to be effective. If you don't 
understand the etymology of the gang, you can respond to it in 
a way that actually makes it stronger and spreads its mindset. 
So street gangs and turf, old-fashioned street gangs where you 
have kids running away from stuff and finding an alternative 
family, they have to be treated differently from folks who are 
heading up Yakuza and the Russian mob and the Italian mob and 
all of those, and the cartels, the cartels, the drug cartels.
    Mr. Scott. And for those very serious cartel-type gangs on 
the one side, but the others should be treated with wrap-around 
services. Can you tell us a little bit about what those wrap-
around services are?
    Ms. Rice. Yes. You do an analysis of the hot spot. You 
figure out what the dynamics are and who the players are. Then 
you design a system to go after each cohort of kids, because we 
focus on children. That is probably because women are heading 
this. We focus on the kids, and we are trying to keep those 
kids safe, not just the kids who are at risk of going into the 
gang, because there is risk prevention--Deputy Mayor Guillermo 
Cespedes has a pioneered prevention strategy that shows that 
already a 30 percent reduction in risk factors, a 49 percent 
reduction in gang affiliation. We are talking about gang 
families. Everybody in the family is a part of the gang. But 
this newest generation that Deputy Mayor Cespedes is working 
with has now decided that they are going to go with a more 
establishment, mainstream, higher level of values and not join 
the gang.
    We have got to sustain that. That takes money. We are doing 
this at a pilot level. But, Congressman, if we don't get the 
investment on this side of Sears, the softer side of Sears, the 
investment healing side, we are going to just have to do more 
and more shock and awe, which doesn't work.
    Mr. Scott. Let me see if I can get another question in to 
Mr. King. When students are in your facility and have other 
opportunities, do they join gangs?
    Mr. King. Absolutely we have students who are approached 
and recruited to be in gangs. We view our job or one of our 
jobs as being to make sure that our students understand that 
they can say no and that there is a pathway to avoid that type 
of life.
    I think that something that we all kind of know but we 
don't really have an opportunity to think about or articulate 
is that schools can be gangs. We can create very positive gangs 
within our school systems. We have to be intentional about 
doing that. What is it that a person who joins a gang, a young 
person who joins a gang is looking for? Resources, respect, a 
sense of community, family. These are things that we can 
provide inside our schools. Many of the best schools in this 
country, whether they be elementary, high school, colleges or 
universities, have very strong cultures. What are strong 
positive cultures but another way of doing gangs.
    And so I think that the work that we do at Urban Prep is 
very intentional around creating a culture of belonging, a 
culture of achievement, a culture of an alternative option and 
pathway to success. And if all schools or more schools did that 
type of thing, I think we would see greater levels of success 
with our young people and keeping them safe and keeping them 
out of gangs.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
Chair will recognize himself for the final round of 
questioning.
    Let me start with you, Ms. Rice. I get a little concerned 
every once in a while that various types of law enforcement 
agencies don't work together, and they don't likely interact 
with what I will refer to generically as educational and social 
services agencies. Who is out of the loop in Los Angeles?
    Ms. Rice. Who is out of the loop? Well, the folks who are 
AWOL, in my humble opinion, are a number of the county 
agencies. The county has most of the safety net in L.A. We need 
probation at the table. We need the county services to be in 
conjunction with the cities. What we have done at the city 
level has got to be expanded to the county level.
    The other missing pieces that we do not have are the job 
creation pieces. Father Greg Boyle is absolutely right. The 
only epidemiological long-term study that correlates with the 
reduction in violent gang crime in Los Angeles is a 
longitudinal study that showed the only factor that correlated 
with the reduction was job creation. If you gave these guys a 
job--and when we do the Summer Night Lights, Congressman, you 
will be amazed. You know what the gangsters ask for? We have to 
actually ask permission to do these programs because they have 
so much control in L.A. When we ask them, when intervention 
goes in, do you want to know what they ask for? They want to be 
trained as firefighters. They want to become cops. They want 
mainstream jobs. That piece of it is completely not there.
    So we have a partial comprehensive footprint in L.A. We are 
doing more than any other region in the country. That is why 
our gang crime, in my opinion, is still going down, while 
everybody else's is spiking. We could lose it in a year. We 
could get a new crack. We could get a new threat from the 
cartels, and it could all go up in smoke. But for this 5 years, 
Mr. Chairman, we have had an incredible run.
    Take a look at our stats. You won't find them anywhere.
    Mr. Sensenbrenner. They are very impressive.
    Let me ask one question about the prisons. Are the prisons 
in the loop in having an integrated way of attacking this? 
Because we have had testimony here that the cartels are 
basically using the lock-up as their headquarters.
    Ms. Rice. The prisons are completely out of the loop. In 
fact, they are part of the problem. I can't crack the 
corrections guards. I am too tired and too old. Somebody else 
is going to have to take that fight.
    Mr. Sensenbrenner. I think there are a few governors of 
your state that have had that problem, too.
    Ms. Rice. Absolutely. I don't understand how the prison 
gangs and the cartels control what goes on in the streets. Now, 
there is a double-edged sword here. I think that our drive-bys, 
you don't hear about drive-bys anymore. We used to have seven, 
eight, eleven a week, drive-bys, drive-by shootings. Nuts, just 
annihilation of people at bus stops and stuff. You don't hear 
about that as much in L.A. Why? Because the prison gang put out 
an order that said if you do any more drive-bys that hit kids, 
you are going to be dead by noon.
    It is a very complicated, perverted situation because the 
control is so high. They control our prisons. There are days I 
can't go into California prisons because the gangs are acting 
up.
    So I think we need to stop our delusion about who is in 
control here. They collect taxes. They run drug cartels. We do 
need targeted suppression that goes after organized crime, but 
we need to distinguish that from saturating a community, taking 
all of the men and young men out of that community, and then 
that community dies because we have locked everybody up.
    Mr. Sensenbrenner. Okay. Let me ask one question of 
Commander Green and Sheriff Stanek. In 2002, Chairman Conyers, 
soon-to-be Chairman Conyers and I as the Chairman of the 
Committee ended up putting together a Department of Justice 
reauthorization bill, which was the first that was passed in 23 
years, which did pass both houses and was signed by the 
President.
    One of the features of that bill was to try to make the 
Department of Justice grants more fungible so that you could 
move money around within the various DOJ programs. What has 
been your experience, each of you, on whether it is fungible 
enough in terms of what you have to do to do your job to combat 
gangs?
    Who wants to be first?
    Mr. Green. I talked about the Federal partnerships earlier. 
A lot of those Federal partnerships are successful because of 
the funding that they bring and the ability to move that 
around.
    Things on the street change continuously, Congressman, and 
for us to be agile enough to address those problems, that 
funding source has got to be able to move around, whether it is 
between the FBI or DEA or ATF, so that they can----
    Mr. Sensenbrenner. I was talking about the local grant 
programs. Before that, when a local municipality applied for a 
Federal grant, they have to try to make sure that they applied 
for a grant in each of the cubbyholes, and they got money for 
each of the cubbyholes, and then when they did get the grant, 
they couldn't move it out of the cubbyhole that they got the 
grant in. Have you experienced a problem with that?
    Mr. Green. I have. Specifically, as we identify those 
needs, what I would like to see is the funding to look 
specifically at the need and be able to move it around for that 
need, because if we apply for grant funding today, it could be 
months, more like years before that grant funding becomes 
available. By the time it is available, the technology has 
changed, the need has changed. So a quicker system----
    Mr. Sensenbrenner. So what you are telling us is DOJ ought 
to speed up the grant approval process.
    Mr. Green. Yes, sir.
    Mr. Sensenbrenner. Sheriff Stanek, you are last but not 
least.
    Mr. Stanek. Well, thank you, Mr. Chair and Members, and 
thank you very much for allowing us to testify today.
    On behalf of sheriffs across this country, I would concur 
with what you just suggested, which is to give us the ability 
that when we apply for a grant, that we don't have to target 
each individual grant but rather can use those monies as the 
needs dictate.
    Every day in my agency of 1,000-plus personnel and 
volunteers, we re-prioritize, re-focus what we are doing in 
order to combat what is happening on the streets or in our 
communities. That grant funding is important and essential to 
us to be able to do that, whether it is burn JAG monies, 
whether it is cops monies, you name it. But I need to be able 
to have that flexibility because what happens today may change 
6 months, 12 months, 18 months down the road for us.
    Mr. Sensenbrenner. Well, thank you very much. This has been 
a hearing that is much more enlightening, educational and 
hopeful than I had planned it would be when I walked into the 
room and started it out. I would like to thank all of you for 
really doing a very good job in pointing out differing ways to 
approach the gang problem. So thanks for coming to D.C. and 
sharing your views with us.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that they may be made part 
of the record.
    And without objection, all Members will have 5 legislative 
days to submit any additional materials for inclusion in the 
record.
    With that, again, I thank the witnesses, and without 
objection, the hearing is adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
